<html>
<title> - STRENGTHENING CONSERVATION THROUGH THE 2012 FARM BILL</title>
<body><pre>[Senate Hearing 112-691]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-691
 
                       STRENGTHENING CONSERVATION
                       THROUGH THE 2012 FARM BILL

=======================================================================


                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,

                         NUTRITION AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION


                               __________

                           FEBRUARY 28, 2012

                               __________

                       Printed for the use of the
            Committee on Agriculture, Nutrition and Forestry


        Available via the World Wide Web: http://www.fdsys.gov/





                  U.S. GOVERNMENT PRINTING OFFICE
78-272                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



            COMMITTEE ON AGRICULTURE, NUTRITION AND FORESTRY



                 DEBBIE STABENOW, Michigan, Chairwoman

PATRICK J. LEAHY, Vermont            PAT ROBERTS, Kansas
TOM HARKIN, Iowa                     RICHARD G. LUGAR, Indiana
KENT CONRAD, North Dakota            THAD COCHRAN, Mississippi
MAX BAUCUS, Montana                  MITCH McCONNELL, Kentucky
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BOOZMAN, Arkansas
AMY KLOBUCHAR, Minnesota             CHARLES E. GRASSLEY, Iowa
MICHAEL BENNET, Colorado             JOHN THUNE, South Dakota
KIRSTEN GILLIBRAND, New York         JOHN HOEVEN, North Dakota

             Christopher J. Adamo, Majority Staff Director

              Jonathan W. Coppess, Majority Chief Counsel

                    Jessica L. Williams, Chief Clerk

              Michael J. Seyfert, Minority Staff Director

                Anne C. Hazlett, Minority Chief Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Strengthening Conservation through the 2012 Farm Bill............     1

                              ----------                              

                       Tuesday, February 28, 2012
                    STATEMENTS PRESENTED BY SENATORS

Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan, 
  Chairwoman, Committee on Agriculture, Nutrition and Forestry...     1
Roberts, Hon. Pat, U.S. Senator from the State of Kansas.........     3

                                Panel I

Nelson, Bruce, Administrator, Farm Service Agency, U.S. 
  Department of Agriculture, Washington, DC......................     5
White, David, Chief, Natural Resources Conservation Service, U.S. 
  Department of Agriculture, Washington, DC......................     6

                                Panel II

Garber, Earl, President Elect, National Association of 
  Conservation Districts, Basile, LA.............................    40
Humphries, Becky, Director of Great Lakes/Atlantic Regional 
  Office, Ducks Unlimited, Inc., Ann Arbor, MI...................    33
Mattson, Carl, Farmer, Mattson Farms, Chester, MT................    37
Mosel, Darrel, Farmer, Darrel Mosel Farm, Gaylord, MN............    38
Stoskopf, Dean, Wheat Farmer, Stoskopf Farms, Hoisington, KS.....    35
Trandahl, Jeff, Executive Director and CEO, National Fish and 
  Wildlife Foundation, Washington, DC............................    31
                              ----------                              

                                APPENDIX

Prepared Statements:
    Casey, Hon. Robert, Jr.......................................    52
    Gillibrand, Hon. Kirsten.....................................    53
    Lugar, Hon. Richard G........................................    54
[Legislative language for Title II available from the Chief 
  Clerk]
    Thune, Hon. John.............................................    57
    Garber, Earl.................................................    59
    Humphries, Becky.............................................    62
    Mattson, Carl................................................    68
    Mosel, Darrel................................................    73
    Nelson, Bruce................................................    80
    Stoskopf, Dean...............................................    87
    Trandahl, Jeff...............................................    91
    White, David.................................................    98
Document(s) Submitted for the Record:
Stabenow, Hon. Debbie:
    National Cotton Council, prepared statement..................   118
    State of Kansas, Office of the Governor, prepared statement..   121
    Partnership of Rangeland Trusts (PORT), prepared statement...   125
    Grand Traverse Regional Land Conservancy, prepared statement.   129
    Various oranizations, prepared statement.....................   137
    Various oranizations, prepared statement.....................   148
Bennet, Hon. Michael F.:
    Colorado Coalition of Land Trusts, prepared statement........   149
Question and Answer:
Stabenow, Hon. Debbie:
    Written questions to Earl Garber.............................   158
    Written questions to Becky Humphries.........................   165
    Written questions to Carl Mattson............................   171
    Written questions to Darrel Mosel............................   185
    Written questions to Bruce Nelson............................   192
    Written questions to Jeff Trandahl...........................   212
    Written questions to David White.............................   217
Roberts, Hon. Pat:
    Written questions to Bruce Nelson............................   193
    Written questions to David White.............................   219
Bennet, Hon. Michael:
    Written questions to Bruce Nelson............................   197
    Written questions to David White.............................   237
 Casey, Hon. Robert, Jr.:
    Written questions to David White.............................   233
Chambliss, Hon. Saxby:
    Written questions to Bruce Nelson............................   200
    Written questions to David White.............................   241
Gillibrand, Hon. Kirsten:
    Written questions to Bruce Nelson............................   199
    Written questions to David White.............................   238
Harkin, Hon. Tom:
    Written questions to Earl Garber.............................   161
    Written questions to Becky Humphries.........................   167
    Written questions to Carl Mattson............................   178
    Written questions to Darrel Mosel............................   187
    Written questions to Bruce Nelson............................   196
    Written questions to Dean Stoskopf...........................   208
    Written questions to Jeff Trandahl...........................   214
    Written questions to David White.............................   232
Hoeven, Hon. John:
    Written questions to David White.............................   244
Leahy, Hon. Patrick J.:
    Written questions to Earl Garber.............................   158
    Written questions to Becky Humphries.........................   165
    Written questions to Carl Mattson............................   173
    Written questions to Darrel Mosel............................   185
    Written questions to Dean Stoskopf...........................   206
    Written questions to Jeff Trandahl...........................   212
    Written questions to David White.............................   229
Thune, Hon. John:
    Written questions to Earl Garber.............................   164
    Written questions to Becky Humphries.........................   169
    Written questions to Carl Mattson............................   182
    Written questions to Darrel Mosel............................   190
    Written questions to Bruce Nelson............................   202
    Written questions to Dean Stoskopf...........................   210
    Written questions to Jeff Trandahl...........................   216
    Written questions to David White.............................   242
Garber, Earl:
    Written response to questions from Hon. Debbie Stabenow......   158
    Written response to questions from Hon. Tom Harkin...........   161
    Written response to questions from Hon. Patrick J. Leahy.....   158
    Written response to questions from Hon. John Thune...........   164
Humphries, Becky:
    Written response to questions from Hon. Debbie Stabenow......   165
    Written response to questions from Hon. Tom Harkin...........   167
    Written response to questions from Hon. Patrick J. Leahy.....   165
    Written response to questions from Hon. John Thune...........   169
Mattson, Carl:
    Written response to questions from Hon. Debbie Stabenow......   171
    Written response to questions from Hon. Tom Harkin...........   178
    Written response to questions from Hon. Patrick J. Leahy.....   173
    Written response to questions from Hon. John Thune...........   183
Mosel, Darrel:
    Written response to questions from Hon. Debbie Stabenow......   185
    Written response to questions from Hon. Tom Harkin...........   187
    Written response to questions from Hon. Patrick J. Leahy.....   185
    Written response to questions from Hon. John Thune...........   190
Nelson, Bruce:
    Written response to questions from Hon. Debbie Stabenow......   192
    Written response to questions from Hon. Pat Roberts..........   194
    Written response to questions from Hon. Tom Harkin...........   196
    Written response to questions from Hon. Michael Bennet.......   197
    Written response to questions from Hon. Kirsten Gillibrand...   199
    Written response to questions from Hon. Saxby Chambliss......   200
    Written response to questions from Hon. John Thune...........   202
Stoskopf, Dean:
    Written response to questions from Hon. Tom Harkin...........   208
    Written response to questions from Hon. Patrick J. Leahy.....   206
    Written response to questions from Hon. John Thune...........   210
Trandahl, Jeff:
    Written response to questions from Hon. Debbie Stabenow......   212
    Written response to questions from Hon. Tom Harkin...........   214
    Written response to questions from Hon. Patrick J. Leahy.....   212
    Written response to questions from Hon. John Thune...........   216
White, David:
    Written response to questions from Hon. Debbie Stabenow......   217
    Written response to questions from Hon. Pat Roberts..........   219
    Written response to questions from Hon. Patrick J. Leahy.....   230
    Written response to questions from Hon. Tom Harkin...........   233
    Written response to questions from Hon. Robert Casey, Jr.....   234
    Written response to questions from Hon. Michael Bennet.......   237
    Written response to questions from Hon. Kirsten Gillibrand...   239
    Written response to questions from Hon. Saxby Chambliss......   241
    Written response to questions from Hon. John Thune...........   242
    Written response to questions from Hon. John Hoeven..........   245



                       STRENGTHENING CONSERVATION



                       THROUGH THE 2012 FARM BILL

                              ----------                              


                       Tuesday, February 28, 2012

                              United States Senate,
          Committee on Agriculture, Nutrition and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Debbie Stabenow, 
Chairwoman of the Committee, presiding.
    Present: Senators Stabenow, Harkin, Baucus, Klobuchar, 
Bennet, Gillibrand, Roberts, Chambliss, Boozman, Grassley, and 
Thune.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
 OF MICHIGAN, CHAIRWOMAN, COMMITTEE ON AGRICULTURE, NUTRITION 
                          AND FORESTRY

    Chairwoman Stabenow. The Senate Committee on Agriculture, 
Nutrition and Forestry will come to order. I want to apologize 
in advance. As you can tell, I am struggling with my voice 
today. I hope it is going to hold out to get all the way 
through the hearing. If not, I am sure my partner and Ranking 
Member's voice will be able to hold up throughout the hearing. 
But we are so pleased to have all of you here today, and we are 
continuing, as you know, our 2012 farm bill hearings.
    For us in Michigan, protecting the Great Lakes is part of 
our DNA, and that is why conservation is so important, and we 
are very pleased to have everyone in town during Great Lakes 
Week. And so we wanted to hold this hearing during Great Lake 
Week to emphasize the importance to us in the conservation 
title of the wonderful partnerships that are occurring around 
the Great Lakes as well as so many other parts of the country 
to protect our soil and our water and our air.
    Conservation, as we all know, helps farmers and ranchers to 
grow healthy and affordable crops while taking care of the land 
and water. And we all benefit from the commitment our farmers 
have to the land. I have seen this firsthand as I have visited 
farms all across Michigan. Thanks to easements made possible by 
the Farm and Ranchland Protection Program and local 
partnerships, Shoreland Fruit Company knew they could keep 
investing in their cherry-processing plant because area fruit 
farmers had made a commitment to keep their land in 
agriculture, ensuring a stable supply. Shoreland was able to 
expand production and create jobs even in a difficult economy.
    Similarly, Burnette Foods, an apple-processing company that 
employs 500 people on the west side of Michigan, benefits from 
the success of easements that keep land in farming and out of 
residential development. They were able to purchase the last 
surviving cherry-processing plant left on Old Mission 
Peninsula, which is an absolutely beautiful place in Michigan.
    I had the opportunity to speak at a Michigan Pheasants 
Forever banquet just a few weeks ago where they are doing 
incredible work with the Pheasant Restoration Initiative 
through the Voluntary Public Access Program we included in the 
last farm bill. Working with volunteers, with farmers, they are 
helping to make sure that hunting remains one of the great, 
great traditions in Michigan.
    But it is more than just our way of life. There are more 
than 1 million hunters and anglers in Michigan who directly and 
indirectly support more than 46,000 jobs in Michigan alone.
    I have said over and over again that the farm bill is a 
jobs bill, and that is as true of the conservation title as it 
is for anything else in the farm bill.
    Of course, the most direct beneficiary of conservation is 
our agricultural lands, which must remain healthy to handle 
future demands on our working agricultural landscapes. While 
agricultural exports are strong today, global food needs are 
expected to double, as we know, as the population grows to 9 
billion people by 2050. The pressure to produce more on the 
same or fewer acres while still facing weather, price, and 
input risks beyond their control will stress agricultural 
producers for decades to come. Working lands conservation sits 
at the very core of our ability to meet these production 
challenges without sacrificing our vital natural resources.
    As we know, farming is measured in generations. The most 
successful farmers are those that can pass along a viable 
farming operation to their children and to their grandchildren. 
And no farming operation can be prosperous without good-quality 
soil and clean water in sufficient quantities. That is why 
conservation is such an important part of the farm bill.
    As we continue our work, this farm bill must focus on 
making our program simpler, locally driven, science-based, and 
flexible enough to ensure that taxpayers' investments in 
conservation are enabling agriculture to remain healthy and 
productive across the diverse landscapes of our great Nation so 
that we can be certain those 1.3 billion acres produce clean 
water, abundant and safe food, wildlife habitat, and a quality 
of life for future generations. That is our goal in the 
conservation title of the farm bill.
    Now, before I turn it over to my friend and Ranking Member, 
Senator Roberts, for his opening remarks, I would like to ask 
unanimous consent to enter a few items into the official 
record: first, written testimony from the Michigan land 
conservation organizations on behalf of the Land Trust Alliance 
and the American Farmland Trust; second, a letter from the 
Partnership of Rangeland Trusts and the National Cattlemen's 
Beef Association; a letter from ten commodity groups in support 
of the framework that we put together on the conservation title 
last fall; and, last, a letter from 643 conservation groups 
representing all 50 States in support of a strong conservation 
title. If there are no objections, these items will be entered 
into the record. We thank these organizations for their very 
strong support.
    [The following information can be found on pages 125 
through 137 in the appendix.]
    Chairwoman Stabenow. Now I will turn to Senator Roberts.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
                             KANSAS

    Senator Roberts. Well, thank you, Madam Chairwoman. Today's 
hearing is an important step in our farm bill process, and I 
welcome Administrator Nelson and Chief White. I look forward to 
their insight.
    Madam Chairman, given your problems with laryngitis, I 
would be happy to always pinch-hit to read the Chairwoman's 
remarks anytime.
    Chairwoman Stabenow. Thank you.
    Senator Roberts. I would not change any adjective or 
adverb.
    [Laughter.]
    Senator Roberts. I might add a few recommendations.
    Chairwoman Stabenow. Right, right.
    Senator Roberts. During our work last fall on the 
conservative title of the farm bill, I appreciated that both 
the NRCS and FSA leaders made themselves available to our staff 
to answer technical questions. I appreciate the longstanding 
commitment of the agencies to detail staff to work through 
legislative provisions in the complex working of the farm bill. 
Thank you.
    Let me stress again that good progress was made on the 
conservation title last fall, and I look forward to again 
working with the Chairwoman and all of the Committee members to 
continue to refine that work. We have a good, solid starting 
point.
    Our current conservation title provides a variety of 
program options for producers. Programs should be flexible to 
meet producer needs and guided by State and local priorities.
    A single program will not meet the needs of all producers, 
but we have gone too far, in my view, in the other direction. 
We now have duplicative programs that have become more and more 
complicated. It is really an alphabet soup when I look at all 
of these programs.
    My goal during this farm bill process is to help maintain 
options for producers while simplifying the programs for the 
producers and those tasked with the implementation. One of the 
most important programs in this title, Madam Chairwoman, is 
EQIP I know you know that--the Environmental Quality Incentives 
Program. This program helps producers address environmental 
regulations. The assistance that the USDA provides is very 
important to help producers navigate a complex web of 
Government mandates.
    The number one concern I hear from producers is 
overregulation. ``Our producers are repeatedly faced with 
layers of regulations that simply do not make sense.'' That is 
a quote from the President about a year ago. Pesticide permits, 
child labor, waters of the U.S., dioxins, spilt milk, CAFOs, 
and the list goes on. I see Dean and Mary Anne Stoskopf sitting 
in the hearing right over there from Hoisington, Kansas, 
America. Welcome to your Nation's capital. Thank you for 
providing us with your perspective. Thank you as well, Dean, 
for your longstanding service as a leader in both State and 
national producer organizations.
    Now, I do not want to give away too much of what Dean will 
say, but he is going to talk about the Conservation Reserve 
Program and the importance of the program in Kansas, especially 
with the recent drought. CRP is a vital program option for 
producers, but we need to allow our producers to have choices. 
Out in the high plains, we want to make sure that the soil 
stays on the farm. CRP can help, and I wanted to ensure that 
producers have that option in the coming years.
    High commodity prices and new technology might change the 
participation in the program, but it is still an important 
option to help protect highly erodible soils. I look forward to 
hearing from our witnesses today, using their insight to help 
guide our work. The conservation title has changed drastically 
over the last 15 years both in number and complexity of 
programs and the size of the budget. We are now spending more 
than twice what we did back in 2001 for conservation programs, 
and conservation spending is predicted to top the commodity 
title spending in the next few years.
    Now, you cannot have this kind of growth without learning 
some lessons about what is working and what is not and how 
producers are reacting to the programs and then the capability 
of the Department to implement the programs quickly and 
efficiently. We are in a very difficult budget situation--
everybody knows that--in crafting this farm bill, and we must 
look at reducing the program overlap and focus in on what 
works. The input from today's panels will help guide us.
    Madam Chairwoman, I know we have a lot of ground to cover 
today. I ask that a statement from Kansas Governor and our 
former colleague in the Senate, Sam Brownback, be added to the 
record, and I thank you very kindly.
    Chairwoman Stabenow. Without objection, so ordered.
    [The statement of Hon. Sam Brownback can be found on page 
121 in the appendix.]
    Chairwoman Stabenow. Well, we have excellent panelists this 
morning, and we welcome everyone. We are going to start with 
two real leaders in this area, and we thank you both, Mr. 
Nelson and Chief White. Let me introduce both of you, and then 
Chief White does have a slide presentation, so we have given 
you a special privilege this morning. Instead of the 
traditional 5 minutes, we have given you 10 minutes, and we are 
happy to do it because we appreciate the information you are 
going to provide.
    Of course, members are welcome to submit a opening 
statement for the record as well this morning.
    Our first witness on the panel is Mr. Bruce Nelson, 
Administrator of the Farm Service Agency, a position he has 
held since July of 2011. He hails from Fort Benton, Montana, 
and has held various positions with FSA within the State, 
including most recently as State Executive Director. He is a 
graduate of the University of Montana, spent many summers 
working on a family farm. We very much appreciate your efforts 
and welcome you today.
    Let me also introduce Chief Dave White of the Natural 
Resources Conservation Service at USDA. Chief White began his 
career with the Natural Resources Conservation Service over 
3two years ago and was named Chief in March of 2009. No 
stranger to our Committee, he has been very active in the farm 
bill process, having worked on the 2002 and 2008 farm bills, 
first detailed to Senator Lugar and then to Senator Harkin.
    And so we welcome both of you today, and, Mr. Nelson, you 
can proceed.

STATEMENT OF BRUCE NELSON, ADMINISTRATOR, FARM SERVICE AGENCY, 
         U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Mr. Nelson. Good morning, Madam Chairwoman, Ranking Member 
Roberts, and members of the Committee. Thank you for the 
opportunity to discuss the Farm Service Agency's conservation 
programs in light of the 2012 farm bill.
    Let me begin by talking about FSA's largest conservation 
program, the Conservation Reserve Program, or CRP. CRP provides 
annual rental payments to farmers and ranchers to establish 
long-term conservation cover. CRP has a legacy of successfully 
protecting the Nation's natural resources while providing 
significant economic and environmental benefits to rural 
communities across the United States. CRP protects our most 
environmentally sensitive lands from erosion and sedimentation 
and helps sustain groundwater, lakes, rivers, ponds, and 
streams.
    Cropland regularly enters and leaves CRP as new land is 
enrolled and as CRP contracts expire. There are now 29.7 
million acres in CRP, down nearly 20 percent from fiscal year 
2007. With contracts on 6.5 million acres scheduled to expire 
at the end of fiscal year 2012, USDA recently announced a new 
CRP general sign-up that will begin on March 12th and end on 
April 6th.
    In addition to CRP general sign-up, FSA offers year-round 
continuous sign-up, which now constitutes about 18 percent of 
the total acres enrolled. I would add that continuous sign-up 
has become a larger portion of overall enrollment in recent 
years, and we are working hard to promote these continuous 
programs.
    Most recently, on February 18th, Secretary Vilsack 
announced a new Highly Erodible Land Initiative, which will 
allow up to 750,000 acres of the most highly erodible land to 
enroll in CRP via continuous sign-up.
    Given budgetary pressures, the fiscal year 2013 President's 
budget proposes capping CRP at 30 million acres. We believe 
that is a fair way to achieve an estimated $977 million in 
budget savings over 10 years while maintaining the CRP program 
at a level where it can continue to deliver substantial 
environmental benefits to producers.
    FSA and NRCS administer several programs that provide 
emergency conservation assistance to producers. For example, 
the Emergency Conservation Program, or ECP, provides emergency 
cost-share funding to rehabilitate damaged farmland. I am 
pleased to report that we have allocated more than $102 million 
nationwide to address damage from floods, hurricanes, 
tornadoes, wildfires, and other natural disasters under ECP in 
fiscal year 2012. This is in addition to the $91 million 
allocated to States to address damage from significant 
disasters last fiscal year.
    The Transition Incentives Program, or TIP, which was 
created in the 2008 farm bill, has been a big success. Over $20 
million of the $25 million statutory limit has already been 
obligated to help transition CRP land from retired farmers to 
beginning or socially disadvantaged farmers who use sustainable 
farming techniques. In addition, FSA is currently reviewing $1 
million in pending requests.
    Because of a concern about high demand resulting from the 
amount of CRP acreage expiring and high commodity prices, TIP 
sign-up was suspended last Friday until steps can be taken to 
ensure that the $25 million statutory limit is not exceeded.
    The Emergency Forest Restoration Program, or EFRP, which 
was also created in the 2008 farm bill, helps owners of non-
industrial private forestland carry out emergency measures to 
restore land damaged by natural disasters. Since the program 
began, more than $24 million has been allocated to the States 
to carry out the program.
    Members of the Committee, in closing, FSA has an important 
set of conservation programs that are uniquely suited to our 
farmers and ranchers. We look forward to working closely with 
Congress to continue to achieve highly targeted, highly 
impactful programs to American producers.
    Madam Chairwoman, this concludes my statement, and I would 
be happy to answer any questions you or members of the 
Committee might have.
    Thank you very much.
    [The prepared statement of Bruce Nelson. can be found on 
page 80 in the appendix.]
    Chairwoman Stabenow. Thank you very much. We appreciate 
your leadership.
    Chief White, welcome again.

STATEMENT OF DAVID WHITE, CHIEF, NATURAL RESOURCES CONSERVATION 
    SERVICE, U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Mr. White. Madam Chair, thank you, Senator Roberts, 
distinguished members of the Committee. It is really great to 
be here. I think your topic, strengthening conservation through 
the farm bill, is certainly apropos. And just as a personal 
word, I am so grateful that you, this Committee and you as 
individuals, are the ones undertaking this effort because I 
have a lot of confidence you are going to do what is right for 
the environment, what is right for the producers, what is right 
for the taxpayers, and what is right for those little Americans 
that we are going to hand this thing over to in a few years.
    You have my written testimony. I am just going to sum up 
the recommendations I made in my written testimony briefly. 
There are three of them. I am just going to echo what you two 
have stated in your opening statements.
    One, we need to streamline these conservation programs, 
including consolidation, if necessary. I realize every program 
has a purpose, every program has a constituency, every program 
has a goal, and they are all worthwhile. And I think it is 
possible to hold true to those and yet still achieve the 
streamlining and the consolidation that would make it much 
easier to implement.
    Two, I would plead for increased flexibility that you 
mentioned, Senator Stabenow, so we can better address our 
conservation needs at the local, State, regional, and national 
levels.
    And, three, Senator Roberts, you mentioned budgets. It 
would be so wonderful if we could have some increased emphasis 
on partnerships in working with local and State government and 
non-governmental organizations so we can get a greater return 
on the conservation investment. I know you are going to do the 
best that you can, but increasing partnerships would be 
wonderful.
    You can be proud of the work we are doing around the 
country. You mentioned I have a presentation, so I am going to 
devolve to that, because one picture is worth a thousand words. 
I am going to take you around the country and I am going to 
show you what your money is buying and what we are doing on the 
landscape. [Slides begins]
    One of the big problems we have is nutrients. What you are 
seeing here is an infrared reader. It reads the chlorophyll 
level in the plant. It can adjust the nutrients being applied 
once per second. On the fly. Now we can put exactly what is 
needed right when we need it, on the fly in the field. This is 
going to have huge impacts on our water and better efficiency 
for our producers in the future.
    This is Maryland. This is a basket filled with steel slag. 
It is a waste product from slag. This pond catches the runoff 
from four poultry houses. We are finding out the steel slag 
absorbs phosphorous like crazy. This has got huge potential for 
us in the future.
    We are also looking at gypsum filters. This is actually a 
ditch. The tile is there. Dirt is put over it. It looks like 
that afterwards. It is going to have amazing impacts on getting 
phosphorous and nitrogen out of water leaving the field.
    Turning to Montana, this is a fairly typical Western water 
diversion. This is a major headache for producers. It catches 
every piece of debris that comes down the creek. Fish get 
entrained. It is being replaced with things like this. There is 
a perforated pipe under there. No maintenance, easy fish 
passage. Cows like it. The rancher gets his water rights.
    Senator Roberts, you mentioned regulation. This bird is 
called a sage grouse. This bird is on a candidate list. If this 
bird is listed as threatened or endangered, ranching as we know 
it in the Western United States comes to a halt because of the 
checkerboard ownership pattern.
    We are embarked on an effort to keep this bird from being 
listed. We are working with a lot of partners, like Pheasants 
Forever, National Fish and Wildlife Foundation, the Western 
Association of Conservation Agencies and conservation 
districts. The Fish and Wildlife Service is a key partner. And 
we think we can do it. This is the range of this bird. And if 
you look at the hot colors here, 75 percent of the birds live 
in 25 percent of the area. If we can protect these core areas, 
we can have energy development--oil, gas, wind, solar. We can 
have residential development. Our cities can grow. It is just 
doable. And it is not high-tech stuff.
    One of our big problems is bird strikes on these barbed 
wire fences, and this is an issue with the lesser prairie 
chicken as well. It is not rocket science. This is vinyl trim 
siding cut in 3-inch pieces, snapped over the wire. We know 
that if you mark a mile of fence, you are going to prevent four 
to five strikes. In the last two years, we have marked or moved 
350 miles of fences. Our science says this is equal to saving 
the entire male sage grouse population in North Dakota, South 
Dakota, Washington, Alberta, and Saskatchewan combined two 
times. Low cost, too.
    We know that if we increase our grass height two inches on 
a rangeland, it will equate to a 10-percent increase in 
population growth. In the last two years, we have installed 
that on 1.3 million acres. It is good for the rancher, it is 
good for the cows, it is good for the birds. You are talking 
about an area nearly the size of the State of Delaware, and 
that is only in two years, and we are just getting started.
    Let us turn to the Central Valley of California it is 
arguably the most productive ag region in the United States. 
There is not one of us that has not had produce from this 
region, whether it is grapes, lettuce, olives, onions, 
broccoli, whatever it would be. These farmers are under the 
worst regulation I have ever seen as far as air quality. This 
is the farm of a guy named Don Cameron. When I went to his 
place, he had 30 irrigation pumps lined up. They all had a hole 
cut in the block because they were too polluting for the 
California Air Quality Resources Board. Using Conservation 
Innovation Grants quality funds we have been able to help 
producers like Don Cameron. We have reduce nitrogen oxides 
emissions the equivalent of removing over 500,000 cars from the 
roads of California a year. If we keep this up for 2 more 
years, we are going to obviate the need for any further 
regulation of agriculture.
    This is Colorado, a rangeland fire; one year later.
    This is Carroll County, Maryland, runoff from a dairy 
producer, a Chesapeake Bay issue. That is what it looks like 
today.
    This is Georgia, a critical area in front of a poultry 
house, the first year.
    This is Indiana, runoff from a cropland field. This is what 
it looks like today.
    Senator Harkin, this is Iowa, a feed lot, major league 
manure problems from this beef operation. This is what it looks 
like today. This producer will not be regulated. He can produce 
beef, and he can do it in an environmentally sound manner.
    Here is timber stand improvement. I had to stand back 
taking this photo. When you get in there, you cannot even see 
anything. A fire goes through, mow, it gets up in the crowns. 
We have seen soil baked into virtual rock. Go in, clean it up. 
These trees are naturally resilient to fire. A fire goes 
through, it stays low, trees are a lot healthier.
    This is Kansas, highly acidic range soil in Kansas. Working 
with the producer, it looks like this today.
    Michigan, Senator Stabenow, look at the cows up in the 
right-hand corner. We had to put a heavy use area in there. We 
rehabilitated the pasture. It looks like that today.
    Riparian area in Minnesota, farming right up next to the 
creek. We put a little buffer in there, and that is what it 
looks like today.
    Here is a big problem in Oklahoma, Nebraska, and Kansas. 
This is from Nebraska. It is the eastern red cedar encroachment 
on the grasslands.
    Here is a Playa Lake in Nebraska. This individual wanted to 
restore the Playa Lake. He enrolled it in the Wetlands Reserve 
Program. Here it is today.
    Oh, my gosh. Senator Gillibrand, this is New York. I do not 
know where to start. These are some major league issues: manure 
runoff, no forage. Working with the producer, this is what it 
looked like last year in 2011. This is the first year. This guy 
is going to be okay. It is going to look even better this year.
    Stream bank stabilization in North Dakota, this is using 
riprap, a harder science.
    This is streambank stabilization in Colorado using bio-
engineering, a much softer approach.
    Ohio, this is the gully forming next to a cropland field. 
This is what it looks like today.
    South Dakota, this producer needed irrigation water for his 
crops. He also wanted some wildlife habitat.
    This is an interesting one. This is Pennsylvania. An 
orchard grower wanted to increase pollinators next to his 
orchard. This is what it looks like today.
    This is interesting, Senator Boozman. This is Arkansas. 
This is a World War II vet, he was a rice grower, been farming 
this land for more than 60 years. A couple years ago, he could 
not get a dependable source of water. He had to give up farming 
rice. Using the AWEP program, we were able to construct a 
reservoir. He is back to growing rice. He is going to make it. 
He is ready to hand the farm over to his kids.
    Back to Minnesota, a critical area here. This is right 
after construction. This is all covered in grass now.
    I am going to end up with this Deepwater Horizon stuff. 
Remember those horrible pictures, the pit of your stomach when 
you saw that stuff flowing out. We had a call from Ducks 
Unlimited and the National Fish and Wildlife Foundation. I see 
Jeff Trandahl is up here next. They are telling me we have got 
50 million birds coming down the Mississippi flyway, every 
single one of them is headed for the gulf, and at the same time 
we have this horrible drought where natural wetlands are drying 
up. So we decided that in these green areas we would ask 
producers, ``Will you help us create instant wetlands to 
provide some habitat for these birds that are flying south?''
    The response was overwhelming. We thought we would try for 
100,000 acres. We actually had over 1 million acres offered, 
primarily by rice growers and soybean/cotton producers. We were 
able to cobble together enough money to do 471,000 acres. We 
disk the field, flood it with water. A couple months later, 
this is what it looked like. The Mississippi State University 
told us that more than one-third of all the duck energy days 
that entire year came from these 500,000 acres, and there are 
millions of acres of wetland. But most of the productivity came 
from these fields.
    The key thing about this is these are working lands. They 
are growing rice, they are growing cotton, they are growing 
soybeans, they are growing catfish, they are growing crawfish 
in the summertime. And in the wintertime they were providing 
habitat for wildlife.
    Do not let anybody tell you that you cannot have 
environmental progress in harmony with agricultural production, 
because we can do it.
    Thank you, Madam Chair. That concludes my remarks, with 5 
seconds to go.
    [Laughter.]
    [The prepared statement of David White can be found on page 
98 in the appendix.]
    Chairwoman Stabenow. Thank you very much. Needless to say, 
it is very impressive and exciting to see this.
    I am going to start with a very simple question because 
there is a lot of debate about this. But in terms of 
conservation, are our farmers and ranchers better off today 
than they were 20 years ago?
    Mr. White. Unquestionably. I think all the research from 
our Conservation Effects Assessment Project (CEAP) results 
show, yes, they are. They are making a heck of a lot of 
environmental progress.
    Chairwoman Stabenow. So what can we do in this important 
farm bill, the largest investment our country makes in 
conservation on working lands, what can we do to build on the 
improvements that we have seen in these pictures?
    Mr. White. Actually, if you would kind of go forward with 
everything I heard and know about the farm bill conservation 
title that you did in the previous thing last fall, I think you 
guys knocked it out of the park. That would be my suggestion, 
if you could move forward with that.
    Chairwoman Stabenow. Thank you.
    Mr. Nelson, let me ask you about the future of CRP. With 
record-high land prices paired with high commodity prices, we 
are seeing, of course, significant pressure to keep land out of 
the CRP program, and this has been a great success story as 
well over the last 25 years. In Michigan, we have seen 
particular success with the continuous type practices under the 
program.
    As our farmers face growing pressure to plant more, what 
adjustments to the current program should this Committee 
consider to ensure that the program continues to protect our 
critical areas effectively? Whether it is in the heart of the 
Dust Bowl country or prime farmland in the thumb of Michigan, 
what should we be doing?
    Mr. Nelson. Well, thank you for that question because that 
is kind of the heart of the issue here, because as you pointed 
out and as Ranking Member Roberts pointed out, we are working 
in a time of record-high commodity prices. And while that is a 
good thing and we are proud of the fact we have record-high 
commodity prices, there are implications to that in terms of 
producers' willingness to participate voluntarily in these 
programs.
    So I think, first of all, you have already talked about, 
both you and Senator Roberts, the need to streamline the 
programs, and we look forward to working with you and Chief 
White and NRCS and the other organizations in order to do that 
during the farm bill process.
    I am a third-generation Montana farmer, and so what is 
important to me is not how many toolboxes we have; it is how 
many tools that we have. And we need tools in Montana that are 
different than you have got in Kansas or Iowa or Michigan. And 
so the important thing in this is not, again, the number of 
toolboxes. It is how many tools we have so that we can tailor 
the conservation programs for our individual farming and 
ranching operations.
    And so in that, I think we need to continue diversification 
and use of targeted approaches so that we make sure we are 
getting the biggest bang for the buck. For example, the 
Secretary just announced the Highly Erodible Land Initiative. 
We believe that is a very good tool for farmers who are dealing 
with highly erodible land. We are talking about land here with 
an erodibility index over 20. That means it is eroding at 4 to 
5 times the tolerance rate. In addition to that, it is land 
that is less productive. On the average, it is 20 to 30 percent 
less productive than the rest of the land on their places.
    And so this gives them the opportunity, as they need to, to 
fit the needs of their operation and enroll at any time, not 
just when we have a general sign-up. And, again, this is land 
that we really need to pay special attention to, particularly 
out in my part of the country, where land blows a lot, frankly.
    The second thing is I think we need to continue to expand 
our partnerships with other levels of government and with 
private organizations, nongovernmental organizations. Under the 
CREP program, for example, the 20-percent financial 
contribution of local governments or other entities leverages 
and stretches Federal dollars. And right now, with the budget 
situation that we have, every way that we can stretch our 
Federal dollars is important.
    In addition to that, the memorandums of understanding which 
we have developed with private organizations such as Pheasants 
Forever that make technical assistance, their technical 
expertise and assistance, available to our agencies and 
producers is extremely beneficial.
    So, in a word, we need to increase our targeting to those 
most environmentally sensitive lands.
    Chairwoman Stabenow. Thank you very much.
    Senator Roberts?
    Senator Roberts. Thank you, Madam Chairman. I ask unanimous 
consent that a statement from Senator Lugar be included in the 
record at this point.
    Chairwoman Stabenow. Without objection.
    [The prepared statement of Hon. Richard Lugar can be found 
on page 54 in the appendix.]
    Senator Roberts. Administrator Nelson, last year, Kansans 
faced an extreme drought, and I hope we do not go through that 
this year, but the prospects do not look very good. Producers 
were granted access to CRP acres for emergency grazing. Of 
course, the effects of the drought were not uniform across the 
State. They were much worse in the southwest corner, sort of a 
bell-shaped kind of situation--Texas, Oklahoma, Kansas.
    The impacts to the livestock industry were devastating. 
Some operations lost decades of their genetics and investment. 
Producers that hayed their CRP acres then were required to 
destroy the hay rather than provide it to livestock producers 
in the State that were in very critical need for forage. Then 
we had hay coming down from Canada. It made no sense.
    What is your policy on destroying hay harvested from CRP? 
And how can we make sure that during these types of emergency 
situations we can be more responsive to ag producers?
    Mr. Nelson. Thanks, Senator. I know about droughts. We have 
those in Montana. My wife happens to be here today. It is the 
first time she has had the opportunity to come and see me at 
one of these, so I have actually got the toughest critic of all 
out in the audience here today. But she can attest to how I 
reacted to the drought in Montana back in the 1980s.
    With respect to emergency haying and grazing, producers can 
donate the hay under emergency haying and grazing, and I know 
in Montana we have worked out a policy within national 
procedure so that producers in exactly the kind of situations 
that you are talking about can conduct the emergency haying and 
grazing on their CRP and can donate the hay. So it is not 
required to be destroyed under all circumstances.
    So we would look forward to working with you on that issue 
in your State, as I know that we did last fall, and any other 
member who, unfortunately, might face those kind of drought 
situations in the future.
    Senator Roberts. I appreciate that. There are 6.5 million 
acres in contracts will expire from CRP. How is the Department 
preparing for the large number of acres exiting the program? 
How are the various agencies trying to coordinate to assist 
producers with their next steps? Are there ways we can really 
facilitate the transition of these acres?
    Mr. Nelson. Well, as I indicated before, one of the new 
things that we have that I think is very beneficial to the 
producer is with the memorandums of understanding that we have 
been able to develop with outside organizations, the technical 
assistance of their biologists is available out there to 
producers to help along with NRCS and other technical service 
providers so that producers can make good choices about whether 
to re-enroll land in CRP or move it into production using, 
hopefully, other conservation techniques.
    The Transition Incentive Program is another program I 
mentioned in my oral testimony, and we are a little bit, 
frankly, concerned right now because, as I indicated, there is 
a $25 million cap on that. We spent a little over $20 million 
right now. We have another about $1 million in requests in. In 
that 6.5 million acres, there is over 68,000 contract holders. 
My point is there are a lot of folks out there with 68,000 CRP 
contracts expiring who we think would have an interest in the 
Transition Incentive Program over the coming months. We have 
got to make sure that we do not overspend, but, you know, it is 
a great opportunity for some producers right now. But their 
ability to take advantage of it right now will be limited by 
the funds available.
    Senator Roberts. I appreciate that. I am running out of 
time.
    Chief White----
    Chairwoman Stabenow. Chief White had----
    Mr. White. Can I respond to that, too?
    Senator Roberts. Well, no, I am going to ask you another 
question, and then you can do that, too, or show me another 
show, whichever way you want to do it.
    [Laughter.]
    Senator Roberts. CRP acres expiring this year, are there 
options for producers to use NRCS programs to help transition 
out of CRP but perhaps keep the acres and grass? That is 
terribly important. In Kansas we had producers interested in 
perimeter fencing on CRP, so my question is: Can producers take 
this action under EQIP? In other words can a producer get ready 
while under contract and transition in the last year of the 
contract with the fencing and the water wells? If you do not do 
that at the end of the fiscal year, you are going to end up in 
a situation where you are in winter, and then you are stuck. 
What is your answer?
    Mr. White. That is what I was going to talk about. Yes. We 
listened to you. We changed EQIP policy. We will do perimeter 
fences around highly erodible land. We will put in pipelines. 
We will put in stock watering tanks. We will help put in cross 
fences, and how you could help is right now you cannot get a 
payment for the same land. So if land is enrolled in CRP, you 
cannot put an EQIP contract on it. But if you could give us 
some flexibility, like if a producer tells Bruce, ``I am going 
to leave the CRP,'' at that point in time, if we can get him in 
an EQIP contract, let us work to get it installed, get him 
paid, contract expires September 30th; October 1, turn the cows 
in.
    Senator Roberts. All right. You just hit a home run, and my 
time has expired.
    [Laughter.]
    Senator Roberts. I would just ask that the rest of my 
questions be made part of the record.
    Chairwoman Stabenow. Without objection.
    [The questions of Hon. Pat Roberts can be found on page 219 
of the appendix.:]
    Chairwoman Stabenow. I would just comment, Chief White, 
that it is the flexibility you are talking about that we have 
been working so hard on as we put together proposals.
    Mr. White. Yes, Senator.
    Chairwoman Stabenow. I want to turn now to Senator Harkin, 
and let me just thank Senator Harkin publicly for really being 
such a leader in this area. I do not think we would be where we 
are today in many of these areas without your leadership, so I 
thank you.
    Senator Harkin. Well, thank you very much for those kinds 
words, Madam Chair. And thank you both, Mr. Nelson and Chief 
White, for your service and for your great leadership in this 
vital area.
    We have made great progress in conservation in this 
country, looking back, going back to post-World War II and on. 
We have had our ups and downs, of course, a lot of it having to 
do with prices and income. But we have made some mistakes, and 
we did some different things, and I think we have learned a lot 
as we have gone along.
    But we are at a point in time, I think, where we are 
looking at a rather long period, at least in the future, at 
least I hope so, of continued high prices for our grains and 
oilseeds in a broad context. So I think all the future looks 
very good for income on farms. How that is going to impact our 
conservation service is really a real question.
    Again, while we have made a lot of progress, there are some 
real serious questions out there about how we are doing in 
terms of water quality, runoff, and soil erosion. The National 
Resources Inventory from the NRCS reported that in 2007 just 
over 100 million acres of U.S. cropland was still eroding at 
greater than a sustainable rate. That is one-fourth. So one-
fourth of our Nation's cropland, according to Chief White's 
organization, is still eroding at greater than a sustainable 
rate. So we have got to pay attention to that, and where is 
that land and how do we focus on it.
    The U.S. Geologic Survey reported last year that nitrate 
transport to the Gulf of Mexico--and I thought that is what you 
were going to talk about when you put that thing up there of 
the gulf region--was 10 percent higher in 2008 than in 1980. In 
other words, it is going up rather than going down. The U.S. 
Geologic Survey reported there has been no consistent declines 
in nitrate levels in the Mississippi River Basin in nearly a 
30-year period.
    So, again, while, yes, we have made a lot of great 
progress, I hope that there is evolving and I hope you can 
reassure me that there is a strategy at the Department for 
looking ahead, at least in the two areas of the erosion on the 
quarter of that--over the sustainable rate and how we are 
focusing on that; and, secondly, in terms of water quality in 
the Mississippi River Basin. Is there a good strategy looking 
at those kind of two elements that sort of stick out as areas 
where we have not really--we have not reached the pinnacle of 
success?
    Mr. White. Sir, you are right and--you are right, Senator, 
and we do have more remaining.
    I would point out to you that in that same National 
Resources Inventory (NRI) study you quoted, we also show a 40-
percent reduction in soil erosion over that 25-year period----
    Senator Harkin. Absolutely.
    Mr. White. --which is absolutely astounding.
    Senator Harkin. Absolutely true.
    Mr. White. Our Conservation Effects Assessment Project is 
showing that farmers have done a lot. Sediment would be double 
the problem it is now if it were not for voluntary 
conservation. But that said, it is showing where we need areas 
to work, and it is primarily in nitrogen and phosphorus in the 
nutrient reduction, whether it is in the Great Lakes, whether 
it is in the gulf, or wherever it would be, the Chesapeake Bay, 
Puget Sound. And I am much more bullish on this than a lot of 
people. I think we can solve these things and do it in a 
voluntary, incentive-based manner using these programs.
    In 2008 farm bill, Congress reauthorized the Resource 
Conservation Act. That assessment has been completed. The 
Department is in the final stages of working on the National 
Conservation Program which will outline the strategy USDA will 
use. That should be ready in a couple months, sir.
    So if we can keep the voluntary, incentive-based, I am 
confident we can work on these things.
    Senator Harkin. Let me just ask you, can you tell me more, 
Chief White, about the aggregate numbers for the first three 
CSP enrollments in 2009, 2010, and 2011? Are you pleased with 
the demand for the program? And how about the division of 
participation relative to the different types of use--cropland, 
pasture, range, forest, and the different types of farming? So, 
again, what about the aggregate numbers? Are you pleased with 
the demand for----
    Mr. White. I am stunned with the demand. The law allows us 
to enroll 12.7 million acres each year. We now have over 37 
million acres in the Conservation Stewardship Program, making 
it the largest program by land area in the arsenal. This last 
sign-up, Senator, because of budget reductions, we can only 
enroll a little over 10 million acres. We have an estimated 19 
million acres offered. So we are going to leave 9 million acres 
that will not be able to be enrolled.
    That program is revamped, it is revised. I think we are--I 
would quote my drill sergeant, but I could not, but we are 
taking names and doing okay with that.
    Senator Harkin. Senator Roberts is an ex-marine. He 
understands that.
    Mr. White. I apologize. That was inappropriate.
    Senator Harkin. No. that is okay.
    Mr. White. I think it is a great future.
    Senator Roberts. Semper Fi.
    Mr. White. If you look at EQIP, you are talking the bricks-
and-mortar program. If you are looking at CSP, you are talking 
about moving people to the higher-level management. You are not 
just talking conservation tillage. You are talking about 
continuous never-till.
    I think that the CSP is going to equip our producers. It is 
where the cutting edge is going to become the mainstream. As we 
look at 9 billion people coming, as we look at increasing our 
production by 70 percent, they will need those management tools 
that are being pioneered in the CSP.
    Senator Harkin. Thank you very much.
    Thanks, Madam Chair.
    Chairwoman Stabenow. Thank you very much.
    Senator Thune?
    Senator Thune. Thank you, Madam Chairwoman, and thank you 
for holding this hearing. Thank you all for being with us 
today.
    Let me just begin by saying that in order for agriculture 
to maintain its current role as one of the few shining stars in 
our economy, our Committee has a tremendous responsibility to 
create agricultural policy that not only provides an adequate 
safety net but that also keeps agricultural production 
sustainable and not damaging to the environment. I know that is 
what you all are tasked with. And what we have seen with the 
current higher-than-normal commodity prices is land prices 
going to new record levels. Higher land prices drive farmers to 
utilize every possible acre to its maximum production 
capability, so we have got farmers who over the years have 
proven themselves to be excellent stewards of their land, and 
conservation title programs that we have included in the 
previous farm bills have provided an excellent assortment of 
conservation tools that are enabling farmers and ranchers 
economically viable alternatives to producing crops on some of 
these marginal and fragile lands.
    However, in today's production agriculture environment, we 
are experiencing thousands of acres of non-cropland and 
grasslands converted to cropland, wetlands drained, and crops 
being raised on this land. The outcome of these practices, or 
at least one outcome for the first time in history, is that 
crop insurance indemnities have exceeded $10 billion for 1 
year, and that was the 2011 crop year.
    So as we develop and modify programs for the 2012 farm 
bill, we need to strive for balance and not diminish the 
effectiveness of the conservation title. It is imperative that 
we keep conservation title programs effective and economically 
viable for producers so that they can continue maintaining 
their long history of excellent land stewardship.
    Our farmers and ranchers have the responsibility over the 
next few decades of feeding not only this country's citizens 
but much of the world's as well, and we simply cannot overlook 
the important role the farm bill conservation title programs 
play in enabling production agriculture to remain sustainable 
into the future.
    So, Mr. Nelson, what I wanted to ask you, in your written 
testimony you had provided that pheasant hunting annually 
brings about $250 million in economic activity to South Dakota, 
and there is no doubt but that CRP has played a significant 
role in this economic activity by providing much needed habitat 
for not only pheasants but also several other game and non-game 
species of wildlife in South Dakota.
    South Dakota currently has about 1.1 million acres enrolled 
in CRP, which is down from our high of 1.5 million acres. South 
Dakota is going to have an additional 224,000 acres expire this 
year and more than 106,000 acres next year. South Dakota's 
Game, Fish, and Parks Department tells me that the State needs 
1.5 million acres to maintain game bird populations at current 
levels.
    In order to keep South Dakota's CRP acres at adequate 
levels, the State needs more than general CRP sign-ups. It also 
needs additional acres in the SAFE program, which is the State 
Acres for Wildlife Enhancement, and in the duck nesting 
habitat, or CP37 program.
    Along with conducting a general CRP sign-up, will FSA be 
increasing South Dakota's allotment of SAFE and CP37 acres in 
the near future?
    Mr. Nelson. Senator, we do review those allotments of SAFE 
acres on an annual basis, and we have been adjusting them among 
the States. And so we will be happy to look at the request from 
South Dakota for additional acres and will work with you and 
your staff on that.
    Senator Thune. How about CP37?
    Mr. Nelson. And CP37.
    Senator Thune. Okay. Good. Well, we will look forward to 
working with you on that.
    Let me ask you this: Do you have any suggested changes for 
us to improve CRP and other FSA-administered conservation 
programs as we draft the next farm bill? I am sure that is a 
question you perhaps have already been asked, but would you 
elaborate on that?
    Mr. Nelson. Yes, and I appreciate the chance to talk a 
little bit more about it. Again, we look forward to the 
streamlining initiative, to working with your Committee, to 
working with Chief White and the conservation organizations to 
try to make sure that the programs work better for producers. 
You know, as a farmer from Montana, it never really mattered to 
me when I went into the USDA office whether I was going to NRCS 
or FSA; I just wanted help. And I think that is the way most 
farmers are, and that is the way we ought to approach our work 
in these agencies.
    Again, I believe that to the extent in this time of fewer 
dollars that we can target these programs to the most 
environmentally sensitive land so that we get more bang for the 
buck while maintaining the variety of tools that producers 
need, again, as we talked about before, our conservation needs 
in Montana are different than yours in South Dakota or Michigan 
or Kansas, and we have got to make sure producers, regardless 
of where they are in the country, have the tools they need. So 
target the programs and give the producers the tools.
    Senator Thune. Madam Chairwoman, my time has expired, but I 
do have a question for Chief White, if I might submit that for 
the record.
    Chairwoman Stabenow. Absolutely, yes.
    Senator Thune. Thank you.
    [The question of Hon. John Thune can be found on page 242 
in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chair, and 
thank you for your work in this area, and thank you to our two 
great witnesses. Chief White has been to Minnesota I think 
three times in the past year or so. I have seen him at the Farm 
Bureau, the Farmers Union, and then also I know you were at the 
Pheasants Forever event, too, so thank you. And Dave Nomsen is 
out there somewhere from Minnesota, from our Pheasants Forever.
    I wanted to start with some questions relating to Open 
Fields. During the 2008 farm bill, I worked for funding for the 
voluntary access program, as you all know, called Open Fields. 
This program offers a voluntary incentive to farmers and 
ranchers to open up their land for hunting and fishing. As you 
know, funding was eliminated in the fiscal year 2012 
appropriations bill, but I wanted to hear from you about how 
the program has been working in the first few rounds. Either of 
you. Mr. Nelson?
    Mr. Nelson. Yes, Senator, if you will bear with me a 
minute, I am not as well organized as I should be here this 
morning.
    Senator Klobuchar. Okay.
    Mr. Nelson. As you indicated, there was $50 million for 
this new program under the 2008 farm bill, and to date, we have 
26 State fish and wildlife agencies and one tribe, the Yakama 
Tribe from Washington State, who have participated in the 
program, and we have obligated almost $30 million.
    So we think that this has been a successful program. The 
President has included $5 million for the program in his 2013 
budget. But right now we are not able to do any modifications 
or additions to the areas out there or to go out to the States 
and give them and the tribes an opportunity to participate.
    One of the things that we are planning on is a transfer of 
the responsibility for the administration of this to NRCS, 
which I believe makes some sense.
    Senator Klobuchar. Okay. Do you want to add anything then, 
Chief White?
    Mr. White. We will try to do a good job of following in 
Bruce's footsteps.
    Senator Klobuchar. Okay. Good.
    I want to ask a few CRP questions. Senator Harkin did a 
good job, and I will maybe do one in writing to follow up on 
the use of the acres. Minnesota is one of the top States, as 
you know, for using those programs in the country.
    One of the things that I have heard from farmers--and I 
know you touched on it, Chief White, in your testimony--is 
efforts to remove the obstacles producers face in accessing 
conservation programs. This is the application process, things 
like that.
    Mr. White. I am glad you asked. We have an effort underway 
as part of our streamlining initiative to help us get ready for 
the budgets that I know we are going to see. We are testing 
right now, Senator, a client gateway software which will allow 
producers to sit at home, apply for a program over the 
Internet, look at their conservation plan, check where the EQIP 
schedule is, to do all their conservation work at home. It is 
being tested right now. We would like to roll it out this fall, 
and we estimate that if we can get this up and running, we can 
save our producers 750,000 hours a year at a minimum in time 
that they are driving to the office or waiting in line or in a 
car. So that is just one example of what we are going to try to 
do to make it easier for our producers to participate in these 
programs.
    Senator Klobuchar. That sounds good.
    Also, some conservation agriculture stakeholders have been 
looking for the possibility of allowing more haying and grazing 
within certain parameters that will encourage producers to keep 
more acres in the program. How do you think the program could 
be improved to ensure that the producer and the taxpayer and 
the environment can all benefit from more haying and grazing on 
CRP land?
    Mr. Nelson. Senator, there is currently two ways that we 
have haying and grazing, as you know, under CRP: There are the 
emergency provisions that I talked about earlier with Senator 
Roberts, and those come about under unfortunate circumstances, 
normally drought in our part of the country. But then there is 
also the managed haying and grazing provisions that allow 
producers three times during the 10-year contract to do grazing 
on the practice and one time to do haying. But you can never do 
more than 50 percent at one time or during the primary nesting 
season to try to make sure that we do not affect wildlife.
    We would look forward to working with you and the Committee 
during your discussion of the farm bill on the managed haying 
and grazing as well as the emergency provisions to see what we 
could come up with.
    I also do want to mention one thing in terms of 
modernization that I think is important, and that is that FSA, 
as you all know, is undergoing development of a new software 
program called MIDAS that is going to be critical for getting 
our employees the 21st century tools that they need to deliver 
the farm programs, including the conservation programs that are 
assigned to FSA. Not only will that program get our employees 
away from 1985 computers that they are still using to 
administer the programs, but like what Chief White is doing at 
NRCS, it will give producers a lot better direct access on the 
Internet to our programs. So it has the double benefit of 
making our employees more productive and giving producers 
better access to our programs directly as well.
    Senator Klobuchar. Thank you. Thank you to both of you.
    Chairwoman Stabenow. Thank you very much.
    Senator Grassley?
    Senator Grassley. Thank you, Madam Chairman.
    First of all, Senator Klobuchar asked the first question I 
was going to ask, her last question, but I would simply add to 
it that I have a lot of interest in my State in expanding 
haying and grazing opportunities. And I hope that people do not 
think that the request comes from those that want to double-dip 
in the sense of harvesting some of the benefits of their CRP 
both from the Federal Treasury as well as from their own sale 
or own use of it. So just put me down as one supporting the 
same interest as what Senator Klobuchar just asked, and I do 
not have to have any comment on that because I heard what you 
told her.
    I do have a question on the issue of conservation. Before I 
ask that, I want to say that this is a common topic among 
farmers. There are seminars, policy meetings, and forums 
dedicated to this issue of conservation. It gets a lot of 
attention in my State because, until recently, we had one of 
the most highly erodible States, and I think now with the 
conservation programs we have, we have got that down to a point 
where it is renewable, at least.
    I am not taking away from those efforts that we already are 
doing, but I do think that we need to recognize a very 
important fact. Many farmers are excellent stewards of the land 
that they farms. Farmers and their families obviously have to 
be concerned about the same water, the purity of the water, the 
cleanness of the air, and right where they live and work.
    In addition, it is in a farmer's financial interest to take 
measures that limit erosion and runoff, so there are plenty of 
incentives to be good stewards. The Federal conservation 
programs are an important tool for farmers in their 
conservation efforts. In particular, I have heard from numerous 
farmers that the working land programs such as EQIP are 
especially useful. In fact, as of last fall, there was a 
backlog of 2,700 unfunded Iowa EQIP applications worth $62 
million. So it is clear that there is a lot of support from 
farmers for that program.
    Another thing that the Agriculture Committee needs to keep 
in mind is telling the story that they do. I have an example 
from Carroll County, Iowa, where farmers leveraged EQIP and CRP 
money to help improve the water quality of Brushy Creek. Recent 
water quality testing showed that farmers' efforts have, in 
fact, resulted in tangible improvements, so that is very 
quantifiable. And as we debate reauthorization of these 
programs, I support reducing the overlap of programs as long as 
we maintain the effectiveness of success stories like this.
    So my question, Mr. White, and it is probably pretty 
nebulous, but I think that we have to take advantage not only 
of quantifying the benefits of dollars we appropriate and the 
benefits that come from those dollars--because you have to do 
that to be accountable to the taxpayers--but has there been any 
thought about the Government taking a lead on trying to 
quantify what farmers do on their own initiative without the 
benefit of taxpayer dollars? An example would be like we tend 
to read figures about minimum tillage or conservation tillage 
being 41 percent now compared to 26 percent several years ago 
as an example, so that we can put some effort into finding out 
what farmers do on their own in addition to what we do with 
just taxpayer dollars.
    Mr. White. Senator, that is a great question, not nebulous 
at all, and the answer is yes. We have done that in the 
Chesapeake Bay. We actually contracted with the National 
Association of Conservation Districts (NACD). You have heard of 
the EPA Bay Model. There were concerns that it was 
undercounting what farmers were doing voluntarily. And the NACD 
went out and did some research on it, and, frankly, they 
think--permission to revise and extend, but I think it was 
about a 25-percent undercount, if I recall correctly.
    The problem we are going to have with this is they also 
said to get a really good grip of it, it would cost us $13 
million to go out there and really figure it out.
    So there are ways that I think, through sampling, there 
modeling, we can start to get a better handle on it. We are 
using the Conservation Effects Assessment Project. It is giving 
us a good handle on what is going on out there, and I will go 
back and talk to our scientists and stuff and see what are the 
methodologies we might use to better capture that work that is 
done without Federal or State or local cost share, where it is 
just a producer wanting to do what is right.
    Senator Grassley. If you could report back to me or my 
staff, I would appreciate it.
    Mr. White. We would be delighted to do so, Senator.
    Senator Grassley. Thank you.
    Thank you, Madam Chairman.
    Chairwoman Stabenow. Thank you.
    Senator Bennet?
    Senator Bennet. Thank you, Madam Chair. Thank you so much 
for holding this hearing. The conservation title, particularly 
the easement programs like the Grasslands Reserve Program, the 
Farm and Ranchland Protection Program, are absolutely vital to 
farmers and ranchers in Colorado, and a letter I brought with 
me today illustrates many of their successes. I should say it 
also includes, Chief White, some very beautiful photographs 
that maybe you could add to your list. It is signed by the 
Colorado Cattlemen's Agricultural Land Trust, the San Isabel 
Land Protection Trust, and the Nature Conservancy, among 
others. With your permission, Madam Chair, I would ask that it 
be entered into the record.
    Chairwoman Stabenow. Without objection.
    Senator Bennet. Thank you very much.
    [The letter can be found on page 149 in the appendix.]
    Senator Bennet. Chief White, I continue to hear that NRCS 
has backlogs for the current easement programs and that 
landowner demand outpaces current funding levels. Would the 
Service be able to submit information on the number of unfunded 
applications you have gotten for FRPP, GRP, and the Wetlands 
Reserve Program, WRP?
    Mr. White. Yes, sir.
    Senator Bennet. Thank you. I appreciate that.
    [The following information can be found on page 246 in the 
appendix.]
    And, Chief, the Bureau of Reclamation, as you know, is 
working on a study of the Colorado River Basin which is due out 
in July. The study is likely to highlight the gap between the 
demands on the river, both the agricultural and municipal, and 
supply into the future. I wonder whether you could share with 
the Committee how NRCS is working with farmers, ranchers, and 
conservation partners out West to secure the productivity of 
agriculture in the basin while also addressing this gap.
    Mr. White. We do a lot of work with the Bureau of 
Reclamation, Senator Bennet. I can give you a California 
example where they are putting money in and we are putting 
money in, and this is in the Central Valley. They are trying to 
shore up the conveyance systems for irrigation and water 
development, and we are taking it from the point it comes out 
of the canal and doing the on-farm conservation. And we are 
having some really phenomenal results.
    In your particular part of the world, when EQIP was created 
back in 1996, they created that out of four programs. One of 
them was the Colorado River Salinity Program. From that day to 
this day, millions of dollars are being spent in the Colorado 
River Basin to work on the salinity issues because of our 
treaty obligations with Mexico on the Colorado River on the 
salt content. We are also doing a huge amount of work on the 
efficiency, water conservation on those irrigated lands. So I 
think with the programs we are addressing that.
    Senator Bennet. I appreciate that. I met last week, Madam 
Chair, with some representatives of our conservation districts, 
our water districts, and one of the things they wanted to urge 
me to say to the Committee is that what in the rest of the 
country can be seen as a water quality issue, in the West it 
really is a water quantity issue that our people are struggling 
with. And I appreciate very much your work on this.
    The group of people I met with actually represented the 
entire State, including San Luis Valley where Ken Salazar is 
from, a former member of this Committee. We talked a lot about 
the importance of AWEP and EQIP, and, Chief, I wonder if, with 
the last couple minutes I have here, you could give us your 
thoughts on how we maintain the functions of those programs as 
we move to a simpler farm bill. You had said earlier in your 
testimony that the work that the Chair and the Ranking Member 
had done for the super committee sort of hit the mark, and I 
agree with that as a general matter. We need to make sure that 
in the writing of the law and the implementation that, as we 
think about consolidation here, we are protecting the important 
functions here. And I wonder if you have got a perspective on 
that.
    Mr. White. Yes, I do. In full disclosure, I have never seen 
the final copy. I do not know anything about it. We were called 
up to provide counsel and advice. But my understanding is that 
it is awesome, just awesome. You have got--the A-Team working 
on this darn thing.
    I think as far as AWEP goes, there are some opportunities 
there for--essentially, that is a partnership issue where you 
work with other entities and things like that, and I said 
earlier if we could increase our partnership activities, that 
would be good, especially in view of the budgets that are 
declining. But I would put a lot of faith in the Chair and 
Ranking Member as well as all of you when you see that, 
whenever that Chairman's mark comes out.
    Senator Bennet. Okay. Madam Chair, I have got a number of 
other questions for Chief White and for Mr. Nelson. I wonder if 
I could submit those for the record for their written 
responses.
    Chairwoman Stabenow. Absolutely.
    Senator Bennet. Thank you very much.
    [The questions of Hon. Michael F. Bennet can be found on 
page 237 in the appendix.:]
    Senator Bennet. Thank you both for your testimony.
    Mr. White. May I have one follow-up, Senator?
    Chairwoman Stabenow. Yes.
    Mr. White. Senator Harkin mentioned about the strategy, and 
part of the 2008 was the reauthorization of the Resource 
Conservation Act. We had something like 2, 200 surveys come 
back asking people what they thought the biggest issue is. The 
number one issue, Senator, was water, water quality and water 
quantity. And that is going to be a big part of the strategy 
that comes out of USDA.
    Senator Bennet. Well, I am very glad to hear you say that 
because that is our number one issue in Colorado. Thank you.
    Chairwoman Stabenow. Thank you very much.
    Senator Chambliss?
    Senator Chambliss. Thanks, Madam Chair, and, gentlemen, 
thanks for the good work you are doing down at USDA. And I want 
to follow up on this particular issue of water quality, but 
there are some other related issues there, too.
    Chief White, on February 17th, you announced a partnership 
with the National Fish and Wildlife Foundation to improve water 
quality, wildlife habitat, and soil productivity. The 
partnership brings together $10 million of NRCS funding with an 
additional $10 million or more in private funds through NFWF to 
increase technical assistance in priority areas. Now, I want to 
ask you several related questions with regard to that 
partnership.
    First, can you provide the Committee with details on how 
this partnership will be administered and how will the $10 
million in funding be used?
    Secondly, are there appropriated funds from the 
conservation operations account? And does the funding go 
directly to NFWF?
    And how will USDA work with NFWF to ensure the funds are 
used appropriately? And how are the priority areas determined 
to be a priority and by whom?
    Mr. White. Thank you, Senator. I am glad you asked about 
that because I think that is one of the key things that relates 
to our future when we talk about reducing budgets and the need 
for Federal agencies to be creative in how we can leverage the 
work that gets done in the field.
    The National Fish and Wildlife Foundation is quasi-
governmental. They have a charter by Congress to do these kinds 
of things, to raise money. Jeff Trandahl, who is the Chief 
Executive Officer of the National Fish and Wildlife Foundation, 
is on the next panel, and he can probably answer some of this 
better as far as their authorities. But they are quasi-
governmental. They do have a charter for this.
    I would be happy to provide you with the details, the 
agreement we have, send it to you, the Committee or your staff 
or whatever you all prefer. That is your first question. Yes, 
we will provide the details.
    The second one, are conservation operations funds used? No, 
they are not. We are using farm bill technical assistance. If I 
recall correctly, it was some EQIP, some Wildlife Habitat 
Incentive, and some CRP funding.
        [Mr. White made a correction in the statement, the 
        funds were from CO and CRP, not EQIP and WHIP.]
    One of the things in this agreement is to help us with the 
CRP as well as FSA, and Bruce has talked some about the 
agreements that are being done.
    And the third question was how will USDA do something. Help 
me?
    Senator Chambliss. How will USDA work with NFWF to ensure 
the funds are used appropriately? And who is going to determine 
these priority areas?
    Mr. White. Okay, the priority areas. The priority areas--
well, to work with them to ensure that funds are used properly, 
this is going to be dollars that would be given as grants to an 
entity that is successful in competing with this. I am from 
Missouri, and you have to show me stuff. And last year we tried 
a $1 million effort with National Fish and Wildlife Foundation. 
They took that $1 million, and they turned it into $5 million 
with leveraged donations.
    I know we need more boots on the ground to do conservation. 
I really do not care whose foot is in that boot, if it is NRCS 
or local or State or nongovernmental organizations. I know we 
need to work out there to get it done.
    So after that experience last year, we obligated some more 
funds, and hopefully this $10 million will turn into $20 or $30 
million or something of that nature.
    The grants would go to things like Pheasants Forever, so 
Pheasants Forever would come up with their own money, they 
would get some match money from us that would be set aside for 
them to pay staff over a period of time. Those people would 
work in our offices. They would be Pheasants Forever or State 
forestry or whatever people, but they would work under our day-
to-day guidance. They would use our technical standards. They 
would have the e-authorization, the IT currently that you would 
need in an NRCS office. If needed, we would do the background 
survey, have the finger-printing done, and they would sign the 
confidentiality, the 1619 form that all of us have to honor and 
respect the confidentiality. And then it becomes more of the 
procurement process on, as bills come--I think they come on a 
form called an 1172 quarterly, and they are verified that the 
charges were accrued, and then they are paid out.
    As far as the priority areas, NRCS has about 15 
initiatives, and we use those. There may be a couple of--I 
cannot remember all of them, Senator, but it is like the 
Chesapeake Bay, the Mississippi River, the sage grouse effort. 
But I can get you more specific information on all of those, 
sir. New England forestry was in there. Actually, New England 
forestry became a priority area because I got a letter from 
seven New England Governors asking us to do it.
    So there are a variety of things that I can provide a lot 
of information for you, sir.
    Senator Chambliss. Okay. Well, if you do not mind following 
up with written responses to that. I would appreciate it. Thank 
you.
    [The following information can be found on page 248 in the 
appendix.]
    Chairwoman Stabenow. Thank you very much.
    Senator Baucus?
    Senator Baucus. Thank you, Madam Chairwoman. I am just very 
honored to have Bruce Nelson testify, and also, Chief White, 
thank you very much.
    Just for the information of my colleagues, I have known 
Bruce for a lot of years, and he is Mr. Agriculture in the 
State of Montana. His farm is near Fort Benton. He has served 
in many capacities. Just a real public servant. Not only a 
great farmer but a great public servant. He just cares about 
the program, and I want to thank him very much.
    And you, Chief White, too. I do not know you as well as I 
know Bruce, but I am sure you are just the same. It is really 
exciting to have you here, although you have great ties in 
Montana, though, Bruce, and I appreciate that as well.
    I just want to thank you all very much. As you know, we 
export so much of our wheat from Montana to other countries 
around the world. In fact, at one point up to 80 percent of 
Montana wheat gets exported. We have got a perfect combination 
of hard, smart workers. Agriculture is our number one industry, 
Madam Chairwoman. I do not know if it is in Michigan or not. I 
suppose with the auto industry agriculture may not be number 
one, but it is close. And in Montana it has been number one 
ever since I can remember, and that is a good number of years.
    I do not have questions at this time for Bruce or for Chief 
White, but I just want to again thank you very much, both of 
you, for what you are doing.
    There is a panel that is coming up later, Madam Chairwoman, 
with someone from Montana on it, Carl Mattson.
    Chairwoman Stabenow. Yes.
    Senator Baucus. I will have some questions I will ask of 
him. But I do have one question, though, for both of you here, 
and that is, the Grassland Reserve Program. And maybe it is 
tied in here, maybe it is not, I do not know. But in an effort 
to keep the sage grouse from being listed under the Endangered 
Species Act, I know that USDA under its various conservation 
programs is trying to help producers develop their rangeland 
not only for grain and for livestock and so forth, but also to 
help sage grouse habitat. And I wonder if the two of you could 
address that and the efforts that you are undertaking, because 
it is very, very important to a lot of States in the West that 
the sage grouse not be listed under the Endangered Species Act.
    Mr. Nelson. Well, thanks, Senator, for the question and for 
the kind words. I am glad Carl Mattson is here, too, because he 
is a real Montana farmer. My farming is sort of confined to a 
desk these days.
    Senator Baucus. Oh, you are a real farmer, too. Believe me, 
I know. I have been to your place.
    Mr. Nelson. But a couple of things, and then I will turn 
this over to Chief White in a minute to talk about the sage 
grouse in particular.
    FSA in Montana has a SAFE area, State Acres for Wildlife 
habitat, a thousand-acre SAFE area specifically devoted to re-
establishing sagebrush, which provides critical habitat for the 
sage grouse.
    Now, I have to confess that as a farmer it is kind of 
interesting because I remember when my dad and grandpa 
participated in programs through the same agency back in the 
1960s to get rid of sagebrush. So we are turning around now, 
understanding the environmental consequences of that and the 
benefits of its re-establishment.
    In addition to that, as you pointed out, Senator, the 
Grassland Reserve Program, which we jointly administer with 
NRCS, is a very good program for maintaining and establishing a 
sage grouse habitat out there and trying to keep it from being 
listed. In Montana, we have got almost 70,000 acres under GRP 
contracts and have devoted almost $7.8 million to those 
contracts. So FSA is trying to play its part in this.
    The President has included $5 million in his 2013 budget 
proposal to maintain existing GRP contracts, but right now with 
tight budgets, we are a little short on dollars for expansion 
of the program.
    Chief?
    Mr. White. One thing: Montana. We are doing so much cool 
stuff with sage grouse. We have got a core area outside a 
roundup, 14 ranchers, 11 of them signed up. These guys are wild 
about it. And, sir, you know, I know a lot of these ranchers. 
These guys are a little bit to the right of Tsar Nicholas, and 
they love this program.
    [Laughter.]
    Senator Baucus. I know a few of them.
    Mr. White. If you look at the Canadian grasslands up there 
in Saskatchewan, there is a remnant population of sage grouse 
that we found out through this effort is actually migratory. 
These birds come down from Canada down to the Charles Russell 
Wildlife Refuge to overwinter, and on the BLM land surrounding 
that. We really take GRP money and some Farm and Ranchland 
Protection, and we are trying to lock down that grass highway 
so these birds will have, you know, the grass to get to Charles 
Russell, the Fish and Wildlife Service Refuge, so they can 
overwinter.
    So next when you talk to your Canadian friends, you can 
tell them we saved the Canadian sage grouse, no charge, just 
doing it to be good neighbors.
    Senator Baucus. I appreciate that. Also, I am glad you are 
making good use, if I understood you correctly, Bruce, of 
sagebrush.
    Mr. Nelson. Yes, actually it is a sagebrush SAFE area, but 
the sagebrush are critical for the sage grouse.
    Senator Baucus. I thought you said that, and I think that 
is----
    Mr. Nelson. I do not want to have to try to say that again 
and stumble.
    Senator Baucus. It is good to hear that someone is making 
good use of sagebrush. We had a sheepherder years ago in our 
place. His name was Hans Koske. Hans Koske was convinced that 
he could develop a patent to turn sagebrush into perfume. He 
has been out there herding a lot of sheep for a long time.
    [Laughter.]
    Senator Baucus. He got thinking about a few things, and he 
was quite convinced that he is going to get a patent for 
sagebrush to convert into perfume, and he would break open the 
sagebrush and he would try to get the perfume out of it. I do 
not think it ever worked, but now we are making good use of 
sagebrush, and I really appreciate that very much because he 
was--this is sort of in memory of Hans Koske because this guy 
tried.
    Senator Roberts. Mr. Chairman, what was the name of that 
perfume? Was that ``Sagebrush''?
    Senator Baucus. It was just ``Sage.''
    [Laughter.]
    Chairwoman Stabenow. All right. Well, maybe we can include 
that in a bio-manufacturing provisions that we put into the 
bill.
    Senator Baucus. I also want to make the point, I am glad 
you are urging cooperation. Time and time again I see at home 
you get producers fighting something, fighting, fighting, 
fighting. I keep saying, ``You cannot beat something with 
nothing. Come up with a plan.'' For example, a lot of operators 
at home work with Fish, Wildlife, and Parks, you know, managing 
game. Some of the game graze on some of the private property, 
but also some public land, and they work out an agreement. So I 
really appreciate the efforts you are undertaking under the 
Grassland Reserve Program. That grass highway you talked about, 
Chief White, that is good, too.
    My strong view is the more you encourage that, the more 
people sign up and participate, and that word spreads. There 
are going to be a few crusty old characters that are not going 
to participate, but, by and large, on the margin it is going to 
make a difference.
    I thank you very much very much.
    Chairwoman Stabenow. Thank you.
    Senator Boozman?
    Senator Boozman. Thank you, Madam Chair.
    First of all, I would ask unanimous consent that the 
National Cotton Council's statement be placed in the record.
    Chairwoman Stabenow. Without objection.
    Senator Boozman. Thank you.
    [The statement can be found on page 118 in the appendix.]
    Senator Boozman. I appreciate you guys being here. We 
appreciate your hard work and all that you are doing for the 
programs. The slides were encouraging.
    I would like to ask just a question, kind of a practical 
thing that we are hearing at home. For conservation programs 
administered by NRCS, some of the supporting forms must be 
completed at the local FSA office, and FSA has announced plans 
to close some of the offices. As a result, producers may be 
required to go to the NRCS in one town and FSA in another town.
    Is USDA considering modification of sign-up procedures to 
enable the producers to complete all forms at one location.
    Mr. White. I will turn this over to Bruce, but the answer 
is yes. Bruce and I have talked about this on where the records 
would be. We do not want to have producers going to County A 
and then to County B for something else. So I have got a little 
group at NRCS, some State conservationists that are supposed to 
give me some recommendations, working with FSA, on how we can 
resolve that.
    Bruce?
    Mr. Nelson. Yes, and I appreciate--just a little background 
on this. Senator Baucus alluded to Dave's Montana background. 
He was State conservationist out in Montana, and so he and I 
have had a good working relationship for years, and so it was 
pretty easy when I got back here just to continue that. And we 
are working together to try to make sure that producers, 
Senator, in those situations, should those offices close, that 
we can accommodate them as much as possible, including, you 
know, that we would consider during heavy sign-up periods 
having FSA staff go over to a neighboring NRCS office to make 
sure that producers could sign up as easily as possible.
    I mentioned earlier that our MIDAS software development 
program hopefully will make it easier for producers to directly 
access our programs. I know Chief White is working on the same 
thing at NRCS, and hopefully eventually that will actually cut 
down on the number of times that producers have to come to our 
offices to sign up for the programs.
    Senator Boozman. I think that is great, and again, that 
really is a very practical consideration that is going to come 
up. Many of the counties that I deal with, the average age of 
the farmer is in the 60s. Many of them are not that Web-based 
literate, so, you know, these are good things, and it is good 
for all of us. But there are some drawbacks, and so I think, 
you know, if we can just use some common-sense approaches like 
you are talking about doing, that would be very beneficial.
    Do we anticipate closing NRCS county-level offices in the 
future?
    Mr. White. Senator, I would not rule it out, to be 100 
percent honest with you. We are about to embark upon a pretty 
long, hard look at the structure, what should be the NRCS field 
office of the future. And NACD, the National Association of 
Conservation Districts, we have been partnering with 
conservation district since the mid-1930s. We would like to do 
a process with them. Gene Schmidt, the president of NACD, is 
here. We will probably send out a joint letter to all the 
States, the State conservation districts and the State 
Conservationists, and ask them to sit down, talk it through. 
Where do we need to be? Where do we not need to be? What should 
these offices be doing?
    One of the things I do not want to see happen, is to have 
staff driving 3 hours to get to a farm, spending 2 hours, and 
then driving 3 hours back. So we may have sub-offices. I just 
do not know. But we are going to have a much better idea at the 
end of September.
    Senator Boozman. Good. We appreciate working with your 
staff, Mr. Nelson. They have been very helpful, and give 
yourself a pat on the back in that regard. Like I say, it is 
helpful to be listened to and to understand some of the 
problems with closing some of the offices. Again, your staff 
has been very helpful.
    Mr. Nelson. Well, I really appreciate that. They are the 
ones that deserve the pat on the back. And, by the way, I am 
one of those over-60 producers who is not very Web literate, 
and so I need all the help I can get at the local office, too.
    Senator Boozman. Well, especially in an area like Montana, 
where it is not that easy. And we have many areas in Arkansas 
like that where, you know, a 20-mile trip or a whatever trip is 
much more like a 45-minute to an hour trip.
    Mr. Nelson. You bet.
    Senator Boozman. Thank you.
    Mr. Nelson. Thank you, sir.
    Senator Boozman. Thank you, Madam Chair.
    Chairwoman Stabenow. Thank you very much, and thank you to 
both of you.
    Chief White, I am going to be submitting a question for the 
record for you today regarding the work that we did last fall 
on the Regional Conservation Partnership Program, which is 
consolidating four existing programs to give greater 
flexibility for farmers and groups. This is a very important 
piece for us in the Great Lakes, and I would appreciate your 
thoughts as we go forward on how we can make that effective.
    [The following information can be found on page 217 in the 
appendix.]
    Chairwoman Stabenow. Thank you very much for presentations 
and answering the questions. We look forward to continuing to 
work with you on this very, very important part of the farm 
bill.
    At this point we would ask our second panel to come 
forward.
    [Pause.]
    Chairwoman Stabenow. Welcome. We are so pleased to have all 
of you here, and my voice is still holding out a little bit. We 
will proceed now. Of course, we ask for 5 minutes' verbal 
testimony, and you are welcome to submit whatever you would 
like in writing. We are certainly very interested in whatever 
you would like the Committee to take a look at.
    I am going to first, for our first witness, turn to Senator 
Roberts to make the introduction.
    Senator Roberts. Well, thank you, Madam Chairman. I would 
like to welcome Jeff Trandahl, the executive director of the 
National Fish and Wildlife Foundation. The foundation was 
created by Congress back in 1984. They match public and private 
conservation funds to address environmental issues. They have a 
number of innovative partnerships at work all across the 
country.
    Jeff was elected clerk of the House of Representatives and 
served from 1998 to 2005. That is 7 years in that body. And 
prior to serving as clerk, Jeff worked in the congressional 
offices of Senator Jim Abdnor and Congresswoman Virginia Smith 
where he learned everything he wanted to know in regard to 
appropriations, and then in my own office when I was a member 
of that body. I do not know quite how to describe his role in 
that he was a special projects director. That means when there 
was an IED about to go off and nobody in the office wanted to 
touch it, we would assign Jeff to do it, and he would do that 
job. I am talking about the challenges we faced at that 
particular time in the post office and the bank and the 
restaurant in the House of Representatives. Those were indeed 
challenging times.
    He is a personal friend. I am pleased that I can officially 
welcome Jeff to testify before the Committee.
    And then I would also like to, if I can at this point, 
welcome Mr. Dean Stoskopf from Hoisington, Kansas, America. 
Dean is joined today by his wife, Mary Anne, and his son, 
Wayne, and his daughter, Julie, who currently work in the 
Washington area. Dean operates a diversified farm producing 
wheat, grain, sorghum, alfalfa, and forages. And he also 
manages a Red Angus cow-calf operation. He is a member of the 
Kansas Association of Wheat Growers, the Kansas Farm Bureau, 
and has been active in the National Association of Wheat 
Growers. And he is not only a member of these organizations; he 
has been one of the most active producers in the State of 
Kansas when it comes to giving of his time, serving as an 
officer of these organizations both at the State and the 
national level.
    Dean, thank you for your service and leadership. On behalf 
of both Kansas and America's producers, we are so pleased you 
and Mary Anne could come to Washington and share some 
conservation thoughts with us and enjoy your family. So thank 
you for coming, sir.
    Chairwoman Stabenow. Terrific.
    And sitting between Senator Roberts' witnesses, we have 
Becky Humphries, who is the director of Ducks Unlimited, Great 
Lakes/Atlantic Regional Office, in Ann Arbor, Michigan. Ms. 
Humphries joined Ducks Unlimited in January 2011. Prior to that 
she was the director of the Michigan Department of Natural 
Resources for 7 years, did a terrific job. She worked for 
natural resource and wildlife agencies in Michigan for nearly 
30 years, and I think important to me, Becky is a graduate of 
Michigan State University, who, by the way, is on their way to 
a Big Ten basketball championship, just for the record. We are 
very excited about that. So I am very, very pleased to have you 
with us today.
    And now I will turn to Senator Baucus to introduce our next 
witness.
    Senator Baucus. Thank you, Madam Chairwoman. I am very 
honored to introduce Carl Mattson. Carl, thank you very much 
for being here.
    Madam Chairwoman, Carl Mattson is quite a guy. He farms up 
near Chester, Montana. Chester is up on what we call ``the High 
Line.'' The High Line is basically Highway 2 across northern 
Montana, the Great Northern Railroad, when we came west, you 
know, North Dakota and across Montana and kept going, and they 
had the first railroad camps that Great Northern built. We had 
numbers like Camp 16, Camp 17, and so forth. And somebody got 
the bright idea, well, we could give names to these railroad 
camps. And so if you look across the High Line, you see all 
these European names. There is Kremlin, there is Malta, there 
is Glasgow. I am trying to think where Chester is in Europe. 
Maybe Carl could tell us where Chester is. But then all 
across--the Great Northern Railroad just took this map of 
Europe and just plucked all these names, and that is what those 
towns are across the High Line in northern Montana. Anyway, 
Chester is one of those town straightforward.
    Carl has been operating for many years, about 37 years, and 
his family. He runs primarily a no-till wheat operation, 
started, I think, back in the 1990s, very involved in the 
State, public schools in Chester, Montana Grain Growers, 
Montana Stock Growers, NRCS local working group, and he is also 
a member of the Precision Ag Research Association. That really 
impresses me. I would like to talk to Carl and figure out how 
many inches taller it is when they set up the computer in their 
combines. Next year they got things just totally covered and 
the seed that comes out just right and other data they might be 
getting from the soil when they are running the combine. It is 
just amazing, the computer operations. It just creates 
efficiencies so much.
    But, anyway, Carl, just thanks so much for all that you do. 
I look forward to hearing your thoughts about what we do in the 
next farm bill. So thanks very much for coming. Also, we very 
much want to thank Janice--did Janice make the trip with you?
    Mr. Mattson. No, sir.
    Senator Baucus. Well, thank Janice, please. Say hello to 
Janice.
    Thanks.
    Chairwoman Stabenow. Great. Thanks very much.
    Senator Klobuchar?
    Senator Klobuchar. Thank you, Madam Chair. It is my honor 
to introduce Darrel Mosel and represent him. He is a farmer in 
Sibley County in Minnesota. And there is no surprise that we 
would have a witness on this panel. We are actually second in 
the country for people signing up for the Wetlands Reserve 
Program. We are fourth in the Nation for the CRP and tenth in 
the EQIP program. And so our State really believes in these 
programs. We think it has been good for our recreation and 
hunting and fishing, but it has also been good for farming. Our 
agricultural lands are more productive than ever.
    Darrel Mosel operates a 600-acre diversified crop and dairy 
operation with his wife, Diane, and his two sons, Christopher 
and Michael, in south-central Minnesota. Currently half of the 
farm operation is organize and half is conventional. He raises 
a variety of crops, including corn, soybeans, small grains, and 
alfalfa.
    The Mosel family also milk Holstein cows and operate a 
small feedlot with about 150 cattle on the farm. So he is 
diversified. That is what I would say.
    He has extensive firsthand experience with farm programs 
related to conservation, dairy, and commodities. We welcome him 
to the panel to give really a firsthand look at what is working 
and what is not, and we really appreciate you being here, Mr. 
Mosel. Thank you.
    Chairwoman Stabenow. Thank you very much.
    And last, but certainly not least, Earl Garber, president-
elect of the National Association of Conservation Districts. He 
recently served as president of the Louisiana Association of 
Conservation Districts. From Basile, Louisiana, Mr. Garber is a 
rice, soybean, and hay producer by trade. His operation is 550 
acres and also includes commercial timber and sorghum. He began 
his career in conservation working for the USDA as a soil 
scientist. Today he is also a licensed crop consultant.
    We very much welcome and appreciate all of you today, and 
we will start with Mr. Trandahl.

 STATEMENT OF JEFF TRANDAHL, EXECUTIVE DIRECTOR, NATIONAL FISH 
            AND WILDLIFE FOUNDATION, WASHINGTON, DC

    Mr. Trandahl. Thank you, Madam Chairwoman, and thank you, 
Mr. Roberts. I want to introduce myself as Jeff Trandahl. I am 
the CEO and executive director of the National Fish and 
Wildlife Foundation.
    As Senator Roberts mentioned, it is a foundation that was 
actually created by Congress back in 1984, and my job is to go 
out and partner with Federal agencies and then raise private 
resources in order to align those resources alongside those 
Federal dollars. It is a way then to grow that conservation pot 
and also stimulate the economy by doing that in order to 
prevent environmental and endangered species issues across the 
country.
    At NFWF we have several different goals: one is to raise 
those private dollars; two, to create efficiencies in terms of 
putting those dollars on the ground; create as many 
partnerships as possible across the country; have impact, and 
measurable impacts; and also bring innovation whenever 
possible; and also bring interest in the private sector around 
what we are all trying to accomplish.
    Conservation has the possibility of being an enormous 
positive economic impact. Last year, we did a study in the 
midst of the Federal budget reduction discussions to just show 
how significant that economic driver is across the country. Not 
only in agriculture but across this sector, it is more than a 
$1 trillion annual impact in the U.S. And it is incredibly 
important when you look at its job creation opportunity because 
it is more than 9 million jobs that we talk about here in the 
U.S.
    NFWF strives to support conservation through hundreds of 
grants annually to agriculture and ranching communities. We 
focus mostly on working landscapes, and one of our largest 
Federal partners among our 14 Federal partners is NRCS. And I 
have to say we greatly appreciate and want to applaud the last 
few years in working with NRCS in the innovation and adaptive 
management that they have been bringing to several conservation 
programs. And as you look forward, we want to see you work with 
NRCS to continue to enhance those programs.
    We are very fortunate. We create that leverage by working 
with more than 50 corporations, multiple foundations around the 
country, and 600 major donors. One program in particular, which 
Senator Chambliss brought up, is CPP. CPP is a recently created 
program with NRCS where they have been able to put forward $10 
million, of which we have committed to raise at least $10 
million in addition, to work with landowners to understand 
conservation programs better.
    It is really the result of the fact that the last few years 
we have heard a lot that capacity and understanding the 
producers is what is preventing a lot of the enrollment out 
there. And, really, to address it you have two choices: it is 
to create more Federal positions to start working with 
producers or to rely on third parties to get out there and to 
really do that work. And in most cases, third parties are much 
more trusted, no offense to any of my Federal colleagues here, 
than Federal bureaucrats themselves.
    So in doing this program, we just had a real life 
experience a few years ago with an oil spill down in the gulf. 
And during that spill, we had the opportunity to do some 
proactive conservation in order to prevent additional wildlife 
losses. And the real focus became rice farmers, and that 5 
months that they were idling their land down there in order to 
convert that land into temporary wetlands to deal with 1.5 
billion birds that were migrating down.
    So the challenge to the foundation from NRCS and the 
Federal agencies is: Can you get people on the ground quickly 
to talk to these producers? And could we get them actually 
enrolled in programs incredibly quickly, in a matter of a few 
weeks, in order to create this temporary opportunity to prevent 
loss?
    Through Ducks Unlimited, through Mississippi Fish and Game, 
through Florida and Texas, we were able to convert more than 
500,000 acres in a matter of a few months. And producer demand 
was actually 3 times higher than what we could possibly fund.
    Based on that experience, I went back to the chief and 
said, listen, we need to do this nationally, and we need to do 
this in priority areas across the country in order to deal with 
sage grouse, the Great Lakes, the Northeast forests, longleaf 
forests down in the Southeast, and on and on.
    I believe it is going to have an enormous impact, and, 
again, what it will do is it will allow us to grow that through 
private dollars more than Federal dollars, which I believe is 
also incredibly important at a time where we are very fiscally 
restrained.
    That being said, I want to urge the Committee to look at 
the conservation title and continue to allow NRCS greater 
innovation opportunities as programs evolve. We think we can 
predict what the problems are, but we constantly find ourselves 
responding 90 percent of the time to the issues that we cannot 
predict. And that is where the programs have to be able to 
adapt in order to prevent us from suffering losses that we do 
not intend.
    At the same time, I want to urge you to look at the CRP 
program. I believe that there are lots of issues and lots of 
opportunities that we can avoid by making that program more 
robust, more flexible, and more producer sensitive. And at the 
same time, I hope that we continue to move the agency towards 
measurable outcomes in order to guarantee that we can actually 
show the result of all this investment that the taxpayers are 
being asked to put forward.
    Thank you.
    [The prepared statement of Mr. Trandahl can be found on 
page 91 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Ms. Humphries?

 STATEMENT OF BECKY HUMPHRIES, DIRECTOR, GREAT LAKES/ATLANTIC 
  REGIONAL OFFICE, DUCKS UNLIMITED, INC., ANN ARBOR, MICHIGAN

    Ms. Humphries. Chairwoman Stabenow, Ranking Member Roberts, 
members of the Senate Committee, on behalf of the million 
members and supporters of Ducks Unlimited, I would like to 
thank you for the invitation to address you today.
    As it was mentioned, my name is Becky Humphries, and I am 
the director of Ducks Unlimited's Great Lakes/Atlantic Regional 
Office. Between my staff and I, we cover 21 State in the 
Midwest along to the east coast of the United States. Before 
that I was director of the Michigan Department of Natural 
Resources, and in that role I served on national and 
international committees related to fish and wildlife with the 
Association of Fish and Wildlife Agencies.
    My written testimony today is endorsed by the Association 
of Fish and Wildlife Agencies, the Theodore Roosevelt 
Conservation Partnership, and Pheasants Forever. And like the 
Senator, I, too, am suffering from a bug, so hopefully we will 
get through this with my voice intact.
    Ducks Unlimited got its start back in 1937. In fact, we are 
celebrating our 75th anniversary this year. In that year, a 
small group of conservationists got together to address the 
concerns with declining waterfowl numbers due to Dust Bowl 
conditions in the United States. Our mission then and our 
mission today is simple: it is habitat conservation. Ducks 
Unlimited is now the world's largest and most effective private 
wetlands and waterfowl conservation organization in the world.
    Waterfowl are not the only beneficiaries of our habitat 
work. Wetlands improve the overall health of our environment by 
recharging and purifying our groundwater, moderating floods, 
and reducing soil erosion. DU delivers its on-the-ground work 
by forging partnerships. In DU, we actually work with farmers 
and ranchers to restore and improve the working landscape for 
waterfowl and other wildlife. Underpinning these projects are 
the programs that comprise the conservation title of the farm 
bill.
    Being that this is Great Lakes week in Washington, I 
thought I would focus my time on the impacts of conservation 
programs on the Great Lakes watershed today. The Great Lakes 
are a national treasure, but they are in peril from a diversity 
of threats, including wetland loss and degradation and excess 
nutrients and pollutants.
    Conservation programs in the farm bill are a major factor 
in reducing and eliminating these threats, and there are a 
couple of examples that have contributed to the health of the 
Great Lakes, and I would like to bring those to your attention 
today.
    The Wetlands Reserve Program, or WRP, has been instrumental 
in helping farmers find better ways for those extremely 
difficult places to farm and to restore vital wetlands. In 
Muskegon County, Michigan, WRP is being used in conjunction 
with the Great Lakes Restoration Initiative and State-funded 
wildlife conservation programs in a partnership of local, 
State, private, and Federal partners to remove historic 
phosphorus levels, to filter agricultural waterways, to provide 
wildlife habitat, and to restore fishing and swimming in Mona 
Lake. We need more of these types of innovative and 
collaborative partnerships as we move forward.
    WRP needs to continue in this next farm bill so that 
projects like this can continue to thrive. WRP is a great 
incentive to restore wetlands on agricultural lands, which is 
needed in other parts of our country that are seeing the 
impacts of excess nutrients, such as Lake Erie, the Mississippi 
River, and the Chesapeake Bay, to name just a few. DU supports 
the consolidation of easement programs as developed by both 
congressional agricultural committees late last year. However, 
in order for WRP and other conservation programs to be 
effective, technical assistance funds need to be commensurate 
with Federal assistance funds.
    Another key program is the Conservation Reserve Program and 
its companion the Conservation Reserve Enhancement Program, or 
CREP. Today we are fortunate to have in the room Dave and Pat 
Jenkins. They grow corn, soybeans, fruits, and other vegetables 
on their family farm along the Illinois River near Peoria, 
Illinois. The Jenkins are active conservationists who were one 
of the first families in Woodford County to enroll in the 
Illinois River Conservation Reserve Enhancement Program. Over 
several years they have enrolled 89 acres in filter strips and 
wetland wildlife habitat. Most recently, Dave and his brother 
Dan enrolled another 83 acres of frequently flooded cropland in 
the Wetlands Reserve Enhancement Program. Ducks Unlimited is 
proud to be a conservation partner working with the Jenkins to 
assist them with wetland restoration on their land.
    CREP is a model program involving a Federal/State 
partnership that is often enhanced and leveraged through 
private partnerships with organizations like Ducks Unlimited 
and Pheasants Forever.
    The next farm bill should build upon the successful 
partnerships like these. The regional partnership program 
developed in the super committee report is a great idea that 
needs to find its way in this next farm bill. Regional 
partnerships fueled by local groups and supported by Federal, 
State, and private funders are a key to accomplish watershed 
approaches, and these partnerships are solutions that will 
yield a good farm economy and a healthy, sustainable 
environment.
    The Conservation Reserve Program, CRP, is our Nation's most 
successful wildlife conservation program, and it was reduced in 
the 2008 farm bill. In 2012, over a million acres of CRP will 
be expiring in the Dakotas with over 900,000 of those acres in 
the prairie pothole region. The loss of pothole habitat will be 
severe on the millions of ducks produced in the CRP acres, as 
well as pheasants and other wildlife.
    What does all that mean? Quite simply, it means jobs. 
Hunters and anglers spend roughly $86 billion pursuing their 
passions each and every year, and wildlife watchers spend 
another $51 billion each year. These expenditures include 
everything from hunting and fishing equipment to 
transportation, hotel stays, and meals in small rural towns 
across this great country. And these jobs are important and 
cannot be export to other countries.
    So when you are weighing how much and which programs to cut 
in this upcoming bill debate--and we all understand that that 
needs to happen--we ask you to think about, if you save money 
by reducing conservation programs, there is a direct cost to 
the outdoor recreation industry through loss of revenue and 
jobs.
    So, Madam Chairman and members of the Committee, a strong 
conservation title yields great benefits to all sectors of our 
society and our economy. Farmers and ranchers gain in 
conserving soil, water, and air, the essential ingredients for 
their economic success. Sportsmen and -women gain with healthy 
populations of fish and wildlife and recreational lands, and 
our working landscapes benefit through programs that protect 
the quality of our precious water resources, keep the soil on 
the land, and ensure nutrients and pesticides perform as they 
should
    Thank you, and know that Ducks Unlimited stands ready to 
assist you in developing a strong conservation title in this 
next farm bill. Thank you.
    [The prepared statement of Ms. Humphries can be found on 
page 62 in the appendix.]
    Chairwoman Stabenow. Thank you. Thank you very much.
    Mr. Stoskopf?

  STATEMENT OF DEAN STOSKOPF, WHEAT FARMER, STOSKOPF FARMERS, 
                       HOISINGTON, KANSAS

    Mr. Stoskopf. Chairwoman Stabenow, Ranking Member Roberts, 
and members of this Committee, thank you for allowing me to 
present you a central Kansas view of the conservation title of 
this next farm bill.
    After talking with many of my fellow producers, I would 
like to share the following guidelines that I believe will 
allow our conservation programs to continue the legacy of 
success they have been: number one, keep programs simple; 
number two, keep programs local; number three, keep the staff 
of NRCS as friends and advisers to the farmers, not enforcement 
agencies for the Federal Government.
    Keeping conservation simple: A major component of 
simplifying programs is the consolidation of programs, which we 
have talked about today. There are a number of proposals before 
you to do that, and to put them into three basic categories: 
working lands, land retirement, and land easement programs. 
Reducing complexity should reduce the overhead associated with 
administering dozens of different programs and allow program 
dollars to reach their intended purpose.
    In working lands, I believe EQIP has become the workhorse 
of the conservation program. It offers producers a wide range 
of options and practices and results in many successful 
partnerships. One program I am concerned does not offer that 
same level of benefit for our investment is the Conservation 
Stewardship Program. Although it is intended to be a 
comprehensive approach to conservation with payments made for 
implementing specific practices, I see compliance issues that 
lead to mistrust and dollars being spent without the same level 
of benefit of other programs.
    The Conservation Reserve Program remains our premier land 
retirement program. In Kansas, we have a little over 2.5 
million acres enrolled in CRP. Last year, 60,000 acres were 
hayed and more than 200,000 acres were grazed under the 
emergency provisions of the CRP. I do see several potential 
areas for improvement with regard to CRP's ability to mitigate 
the effects of a major drought.
    Number one, allow hay harvested from CRP land under an 
emergency declaration to be sold. This regulation often 
prevents one producer who may not have cattle from being able 
to provide hay to another one who does. There is just not the 
incentive there to do that.
    Number two, expand emergency haying and grazing operations 
beyond the disaster-declared counties. When a county has been 
released to start emergency haying and grazing under extreme 
drought, the area usually is already under that extreme 
drought, and those grasses are not very good to hay or graze. 
It has been too late. Allowing neighboring counties that are 
not as drought-stricken to perform emergency haying and grazing 
operations could greatly increase the amount of forage 
available.
    Number three, examine procedures for releasing counties for 
emergency haying and grazing. The current provisions for 
releasing a county work well when the severe weather is limited 
to a small area, but it is too cumbersome a process for a 
drought as large as the one in 2011.
    Number four, allow the State FSA committee to determine 
which CRP practices are eligible for managed haying and grazing 
and emergency haying and grazing. Local and State entities are 
in the best position to make decisions regarding practices on 
CRP acres.
    The Conservation Reserve Program continuous sign-up has 
also yielded tremendous environmental benefits and is an 
example of prudent use of available dollars. It simply makes 
sense to expand the enrollment of highly sensitive areas of 
land, typically in smaller tracts such as buffers, filters or 
strips, and other areas that improve the soil, water, and 
wildlife habitat quality.
    Keeping conservation local: Every region of the country has 
different conservation needs and requires locally tailored 
solutions. Farmers working with the local NRCS staff are best 
able to develop those solutions that will work well for their 
areas.
    Working land programs should be administered as locally as 
possible, and no higher than the State level. Local landowners, 
tenants, and advisers have a much better understanding of the 
needs in their area as well as the solutions that will work.
    Advice and support versus enforcement: NRCS staff and the 
staff of the local conservation district have always worked 
cooperatively with local farmers to advance conservation. As 
farmers, we trust those advisers. If NRCS becomes an 
enforcement agency, that trust will be lost, along with the 
cooperation.
    Thank you for the opportunity to address your Committee 
today for taking my views and opinions into consideration as 
you deliberate on the conservation title.
    Cooperation between ag producers and the Government has 
created a legacy of positive conservation efforts in this vast 
country. Together we can continue this legacy for future 
generations.
    [The prepared statement of Mr. Stoskopf can be found on 
page 87 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Mattson?

 STATEMENT OF CARL R. MATTSON, PRESIDENT, MATTSON FARMS, INC., 
                        CHESTER, MONTANA

    Mr. Mattson. Good morning. Thank you, Chairwoman Stabenow, 
Ranking Member Roberts, Montana Senator Baucus, and members of 
the Committee, for the opportunity to speak to you today about 
something very important to me.
    My name is Carl Mattson, and I have farmed with my family 
near Chester, Montana, my entire life. We operate a successful, 
no-till, dry land wheat farm near the Canadian border.
    The wind blows in Montana; always has. During the 1960s, 
while in grade school, I recall my school bus being sent home 
early due to blowing dust. As we bounced along the dirt road, 
the driver would occasionally stop and wait for the dust to 
clear so he could safely continue. Our son is 33, lives where I 
grew up, and has never experienced dust like that.
    The implementation of conservation practices works.
    Many CRP acres in Montana, suitable for farming, will not 
be re-enrolled in CRP. We must protect our conservation 
investment. So it is critical that farmers have the incentives 
and assistance needed to farm these acres in a sustainable way.
    Today we find ourselves standing at an important crossroads 
for U.S. ag policy, especially for conservation programs. What 
we do here matters to U.S. farmers.
    By 2050, our world will face the daunting prospect of 
having to increase food production by as much as 70 to 80 
percent. The reality is that much of the need will and must be 
met here, by U.S. farmers and ranchers. Worldwide food security 
is important, and it is not just about feeding people. It is 
about creating political stability, averting famine, and 
preventing despair and disease.
    For those of us meeting that need on American farms and 
ranches, we must balance the competing demands of high 
productivity with the need to maintain overall sustainability 
within our agricultural system. We must find ways to generate 
more without degrading soil and water quality or creating 
further losses to limited wildlife habitat. Just maintaining 
our current levels of conservation practices, frankly, may not 
be enough to meet the unprecedented requirements of feeding 9 
billion people.
    Investing now to enhance and protect our natural resource 
base is crop insurance for a nation, a prudent risk mitigation 
strategy initiated by this generation to feed the next.
    EQIP and CSP provide the incentive platform needed to 
assist farmers with the implementation of conservation 
practices so important to the sustainability of our working 
lands.
    On the Mattson farm, we aggressively pursued and helped 
pioneer the adoption of no-till farming and precision ag 
techniques in Montana.
    To strengthen conservation in the next farm bill, we must 
recognize and avoid perverse incentives. ``Early Adopters'' are 
visionaries that conquered the learning curve for each new 
conservation practice. They provide the local knowledge 
necessary for large-scale adoption of new conservation 
practices by others. Our capacity to meet the future demands 
will require significant breakthroughs in conservation 
practices. The next farm bill must create an atmosphere where 
innovators are encouraged to innovate.
    As a Nation, we must find innovative ways to replace top-
down regulation with proactive voluntary approaches, such as 
USDA's Sage Grouse Initiative. The key to the initiative's 
success is shared vision of wildlife conservation through 
sustainable ranching. What is good for ranching is good for 
wildlife.
    In closing, I stress that American agricultural producers 
like me care about conservation and are committed to enhancing 
the working lands and rural communities that provide food and 
fiber for our Nation. Innovative, flexible, and voluntary 
approaches are the foundation on which we reaffirm our ongoing 
commitment to food production and natural resource 
conservation.
    Thank you.
    [The prepared statement of Mr. Mattson can be found on page 
68 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Mosel?

STATEMENT OF DARREL MOSEL, FARMER, DARREL MOSEL FARM, GAYLORD, 
                           MINNESOTA

    Mr. Mosel. Good morning, Chairwoman Stabenow and members of 
the Senate Agriculture Committee, and thank you for this 
opportunity to testify before you today.
    Currently, I am using some of the working lands 
conservation programs like the CSP. These are some of the most 
important investments that our farm bill can make in ensuring 
food security, protecting our natural resource base, and 
keeping farmers farming. My family and I operate a diversified 
crop and dairy farm in Sibley County near Gaylord, Minnesota. I 
am active in several farm organizations, and I am here today 
with the Land Stewardship Project.
    I have been farming for 3two years, and at the present 
time, our farm is both organic and conventional. Presently, 
about 40 percent of our acreage is corn, 30 percent is 
soybeans, and the remainder is split between small grains and 
alfalfa. We milk Holsteins and operate a small feedlot.
    About 25 percent of our crops are fed to our livestock, and 
the remainder is marketed through various means. Some goes to 
the local ethanol plant, which I have shares in. The rest is 
sold either as organic feed to organic farmers or sold to local 
co-ops in our area.
    Sibley County has been blessed with productive soils, and 
it has been our family's good fortune to have the opportunity 
to farm in this community. Both of my sons, Christopher and 
Michael, are hoping to join my farm operation someday. I hope 
they can do that.
    But like most agricultural areas, we have natural resource 
demands. In particular, wind and soil erosion is a significant 
problem, and water quality are serious concerns in my area. I 
fundamentally believe that we farmers need to be stewards of 
the land. We must be constantly mindful of what we are doing 
from year to year on the land and be sure that it will not 
impact the land's ability to provide for the future.
    One of the programs I have had the opportunity to take 
advantage of, the CSP, allows farmers to farm and at the same 
time enhance their conservation performance in their 
operations. In 2009, I started a 5-year contract with the CSP 
program, and I receive about $15,500 a year. I received 
recognition for a lot of the conservation efforts that I 
employed over the years, like the waterways, the no-till, and 
split nitrogen applications. And with the Conservation 
Stewardship Program, I am able to add a number of new 
conservation enhancement ideas that enable me to do more 
conservation on my farm.
    One of the conservation enhancements I elected to use that 
fits my farm was the resource-conserving crop rotation. A few 
years back at my wife's farm where she grew up, we noticed a 
lot of erosion problems. A simple 2-inch rain would cause 
irreparable damage on the 40-, 50-acre slopes. With the 
Environmental Quality Incentive Program, we laid out contour 
strips on that piece of ground. And now with Conservation 
Stewardship Program, I am able to manage and maintain those 
contour strips. In my experience, the two programs, EQIP and 
Conservation Stewardship, work together while both being 
distinctly different in what they offer.
    Another enhancement that I took advantage of was a more 
comprehensive integrated pest management. This year I will be 
investing $5,000 to create GPS maps and equip my equipment with 
global positioning systems. It helps me to better target 
pesticides. I will reduce the overlap in spraying, which is 
good for the environment and good for my pocketbook.
    The pressures in agriculture are immense, and I am 
concerned that we are losing a diversity of crops and farms 
that are good for rural communities, the environment, and our 
economy. I believe the Conservation Stewardship Program is part 
of the answer to helping maintain diversity on the land. 
Without the Conservation Stewardship Program, it would have 
been more profitable the last couple of years for me to plant 
my entire farm in continuous corn. But with the Conservation 
Stewardship Program, I was able to maintain a four-crop 
rotation which helps reduce erosion and increases water 
retention, something we needed during the drought last summer. 
I think the $15,000 is a good investment because it is going to 
farmers to do good things.
    As deliberations continue on the next farm bill, I urge 
members of this Committee to maintain a strong funding base for 
the CSP program. That would be my main recommendation. I wish 
more of the farm bill was like that.
    Additionally, I encourage incorporating greater 
transparency into the Conservation Stewardship Program as well 
as all farm programs in ensuring that the Conservation 
Stewardship Program has strong integrity and benchmarks.
    I appreciate this opportunity to share my experiences and 
speak to today on what I believe is an effective program in 
supporting farmers and the outcomes we want from agricultural 
policy. I look forward to any questions members of the 
Committee may have. Thank you.
    [The prepared statement of Mr. Mosel can be found on page 
73 in the appendix.]
    Chairwoman Stabenow. Thank you very much.
    Mr. Garber?

STATEMENT OF EARL GARBER, PRESIDENT-ELECT, NATIONAL ASSOCIATION 
          OF CONSERVATION DISTRICTS, BASILE, LOUISIANA

    Mr. Garber. Good morning, Chairwoman Stabenow, Ranking 
Member Roberts, and members of the Committee. On behalf of the 
National Association of Conservation Districts and our 3,000 
member districts across the country, I want to thank you for 
the opportunity to be here today.
    As you know, I currently serve as President Elect of the 
National Association of Conservation District. I own a rice, 
soybean, and hay farming operation in Basile, Louisiana, and I 
might add it is right in the middle of the migratory bird 
habitat initiative. I saw firsthand how well it worked. I have 
served as a board member of the Acadia Soil and Water 
Conservation District in southwest Louisiana since 1981. I know 
firsthand the value and the necessity of strong conservation on 
the land.
    Conservation districts are a critical link to the success 
of implementing conservation in America. We were the delivery 
system set up in the 1930s to set the work priorities, to help 
producers implement practices with accountability, to provide 
resource support for delivery, and to bring partnerships and 
coalitions together.
    It is extremely important that we protect conservation 
funding. Simply put, conservation works. Conservation is a tool 
that is available to every producer, and it helps producers 
avoid regulations. Producers are already faced with the 
challenge of doing more with less. With a further decrease in 
funding, the implementation of farm bill programs would be an 
additional challenge to the producer. While we understand the 
current economic climate, we must also acknowledge the 
investment of putting conservation on the ground.
    Technical assistance is critical in ensuring farm bill 
programs are implemented with accountability. Technical 
assistance dollars will be more important than ever to ensure 
that we have adequate capabilities to get conservation 
delivered.
    We are in a situation where additional cuts to conservation 
programs above the $23 billion submitted to the super committee 
by your Committee will put the very viability of these programs 
at risk. Congress needs to determine whether conservation and 
protection of natural resources today is more important than 
the escalated costs of repair in the future.
    In light of the budget situation, thank you for recognizing 
the value of drafting a common-sense framework to submit to the 
super committee. You demonstrated strong bipartisan, bicameral 
support for locally led conservation programs that streamlined 
and increased efficiency wherever possible. For this reason, 
NACD supports consolidation of programs as an important part of 
the conservation title and Chief White's Conservation Delivery 
Streamlining Initiative that he referred to earlier this 
morning in the field. Individual private landowners will 
benefit from streamlining when programs are easier to access 
and manage.
    As we look at consolidation, we must be careful not to lose 
any of the critical program functions that help complete the 
cycle of resource needs on the land, for example, forestry 
practices in the EQIP program. As a small private landowner 
owner myself, I know that if I did not have this assistance, a 
portion of my farm would lack the management it needs, such as 
technical assistance for stand improvement and other forest 
practices.
    Another example of consolidation includes farm bill 
easement programs. Easements retain working lands which over 
time include the operation and maintenance components that fee 
simple acquisitions do not. We must assure that the easement 
programs are maintained to provide for protection of our 
farmlands, our wetlands, and highly erodible soils. The 
easement programs provide a buffer effect to land use change 
which occur on many fronts of our society as the population 
grows and more demand is put on our natural resources. Thus, 
easements effectively secure the natural resources being 
protected by conservation practices to achieve economic and 
environmental benefits for future generations.
    Conservation programs provide a strong risk management 
tool. Mitigating risk for producers, landowners, homeowners, 
and anyone who buys insurance is possible. This past year, we 
have seen severe weather events from intense drought to extreme 
rainfall. Locally led, incentive-based conservation practices 
are the key to protecting our natural resources across the 
diversity of the landscape. Every acre counts.
    Agriculture is as diverse as the potatoes and specialty 
crops in the Northeast, as the Midwest grains, as the 
Mississippi Delta small grains and cotton and produce, and the 
rangeland of the West. All conservation programs work together 
to reach across the entire spectrum of resource needs. 
Depending on location, the management of resources varies. 
Different regions have different needs. NACD understands and 
promotes the importance of locally led resource management to 
address the diversity of these needs across the Nation.
    In conclusion, these farm bill programs show a track record 
of success, and every dollar spent has seen a return. Because 
of the 2008 farm bill, we are better prepared to meet future 
resource needs, and we must continue to fund these programs. As 
a producer, I have used many of these programs in my own 
operation and know firsthand the tremendous value and return on 
investment they bring to the producer. I have had the 
opportunity to participate in EQIP, CSP, and land treatment 
watershed programs to implement conservation practices 
addressing local resource conservation concerns on my farm.
    This concludes my testimony. Thank you again for the 
opportunity to be here today, and I would be glad to answer any 
questions.
    [The prepared statement of Mr. Garber can be found on page 
59 in the appendix.]
    Chairwoman Stabenow. Well, thank you very much, and thank 
you to each of you.
    I understand Senator Baucus is going to have to leave, so I 
will turn first to you.
    Senator Baucus. Thank you very much and I thank Senator 
Roberts for letting me go first.
    Mr. Mattson, I wanted just to compliment you on the basic 
core of your testimony, namely, that with increased food demand 
in the world in the next 10, 15, 20, 30 years, we have got to 
spend much more effort in our conversation practices so we can 
produce more without degrading our soil.
    Last week, I was in Russia, primarily to advocate and push 
the repeal of Jackson-Vanik legislation so the United States 
will grant PNTR to Russia. I think it makes eminent sense that 
we Americans do so. I will not go into all the reasons now why. 
But I was impressed with the competition in Russia, too, in 
producing food.
    I was at a John Deere assembly plant just outside of 
Moscow, and I there learned about the tractors they are 
assembling. John Deere builds tractors in the United States and 
takes them apart and ships the parts over to Russia and then 
they are reassembled over in Russia. And it is not just John 
Deere, but it is Caterpillar and lots of other American 
companies that are doing this because of the great potential of 
agricultural production in Russia.
    This fellow, the plant manager, said to me that in Russia, 
the manager of far will say, okay, to an operator, you just get 
on that combine and you just go that direction straight all day 
long--until about midday, and then at midday you turn around 
and come back. They have not even gotten to the end of the 
place. There is just so, so much arable and productive soil in 
Russia.
    They think that there is going to be a huge additional 
production in Russia, and they are building the infrastructure 
so they can get the grain to market. So they are working, too, 
to provide--in fact, I heard the same figure from them that you 
just gave me today. They said between 70 and 80 percent by the 
year 2050--we are going to have to increase 70 percent world 
production by the year 2050. So, A, you are doing the right 
thing. But, B, we have got competition, too, if we are going to 
produce food for people all around the world.
    I would like your thoughts about which of these 
conservation programs you think really work the best. I assume 
EQIP works pretty well. You were the first in Montana to get a 
CSP contract. That says a lot for you. And one of the witnesses 
said CSP does not work terribly well. If you could just tell me 
what you think about CSP and EQIP and how we can improve upon 
them, and maybe talk a bit about CRP as we get--I think about 6 
million acres are going to come out of CRP this year because 
the commodity prices are up and farmers want to produce rather 
than just keep some acres in CRP. But how do we make our 
conservation programs work even better so that we can still 
produce more?
    Mr. Mattson. Senator Baucus, thank you. You are correct on 
the CSP. I was the first in Montana to receive a contract, and 
I received that contract under the 2005 Conservation Security 
Program. And the mantra there was, ``Reward the best and 
motivate the rest.'' And following 7 years of drought, I was 
motivated by the significant dollars involved in the program, 
and for the first time in a long time, I was in the right place 
at the right time with the right qualifications to be ready for 
this program.
    We took this program, and although we were involved in a 
lot of processes, we used it to expand each and every thing 
that we did. We further refined our no-till; we increased 
wildlife habitat; we intensified our soil testing; and we 
expanded our recordkeeping; but most importantly, we continued 
to add GPS facilities to every field operation that we have.
    But one of the greatest benefits in that program was my 
neighbors' transitioning to CSP. At that point in time, the 
whole idea of motivation worked. CSP rewarded me for what I was 
doing, but it motivated 30 or 50 other neighbors of mine to 
make the switches to these sorts of things.
    Senator Baucus. So they saw what you were doing and said, 
``Hey, Carl is doing this. It looks like a good thing''?
    Mr. Mattson. Well, ``Carl is doing this, and Carl got paid 
to do this, and it looks like a really good thing.'' So there 
was a----
    [Laughter.]
    Senator Baucus. They wanted to get paid, too.
    Mr. Mattson. Yes, they wanted theirs, too.
    Now, the program changes, but CSP right now is the program 
that is bringing these conservation practices onto the use on 
the working farms. The only problem I see right now, there is a 
little--in the old program, we were looking at a high standard 
to enter the program so people were adding their own no-till, 
they were adding their own GPS, and so on and so forth. Now 
there is a little bit of hesitation--although the programs are 
widely used, there is a little bit of hesitation on the part of 
farmers to step out and put these things in place until they 
have the opportunity to participate in the CSP program. So 
there may be some room for consideration there on how we do it.
    The EQIP program
    Senator Baucus. Would you just comment--I know my time is 
up--on the Sage Grouse Initiative? Is that working? Does that 
make sense? My sense is that it is working and does make sense, 
but you are on the ground, you are the guy. What do you think?
    Mr. Mattson. I think it is outstanding. Montana, as you 
know, is the birthplace of the Sage Grouse Initiative, and 
since that time there are 11 States involved, 400 ranchers, and 
the interest has been overwhelming in the program as a whole. 
In 2 short years, we have improved conservation, we have 
reduced bird deaths, we have improved beef production, we have 
improved grouse numbers, in addition to adding 208,000 of 
easement acres and another 1.3 million acres of grouse-friendly 
grazing management plans.
    The agreement between NRCS and FWS is a landmark event, and 
it promises a certain degree of certainty that farmers need and 
ranchers need to proceed. And what this does, what SGI does, is 
turn a problem into an opportunity and encourages cooperation.
    Senator Baucus. Great. Thank you very much.
    Mr. Mattson. You are welcome.
    Senator Baucus. I appreciate that. Thank you.
    Thank you, Madam Chairman.
    Chairwoman Stabenow. You are welcome.
    Let me go back and ask Mr. Trandahl and Ms. Humphries about 
partnerships, because there are so many different pieces to 
this, but we know that we leverage dollars and create real 
opportunities by partnerships. Both of you have talked about 
that. And I am wondering if you might speak a little bit more 
about the challenges in realizing landscape level conservation 
successes and what kinds of additional technical or financial 
resources would help you as partners to get the real 
conservation results that we are looking for.
    Mr. Trandahl. Okay, I guess I will start and then Becky 
will follow. I would say that the most important thing in a 
partnership is making certain that we have clarity of what we 
want the outcome to be. And getting clarity from the Federal 
agencies in terms of what their goals are and seed resources 
out of the Federal agencies, we are then able to build a 
comprehensive strategy in terms of how to build programs to get 
to those specific outcomes.
    Then for the foundation, we go through normally a 
competitive process. We literally put an RFP out into a region 
to say this is the strategy that we are attempting to 
accomplish and here are the components of implementation to 
that strategy.
    One of those generally is an outreach and education 
component to the private landowner, of which we have relied on 
Pheasants Forever, Ducks Unlimited, you name it, multiple 
organizations to literally get out in the field and knock on 
doors to explain what this strategy is all about and what 
programs are available and what resources are available out 
there.
    On the private fundraising side, again, knowing that there 
is a clear outcome and strategy attracts private investment. 
And, you know, my job is to get out there and to then find 
those private dollars to invest alongside.
    By law, we are required in many cases to raise 1:1 private 
dollars to those public dollars that come through the 
foundation. We have a track record of raising more than 3.5:1. 
So the private dollar stimulation has been incredibly 
successful, and if we look at the foundation just through the 
last 3 or 4 years, you know, our growth continues to be 20 
percent annually. So those private dollars are available if we 
decide to deploy the right approach to them.
    Chairwoman Stabenow. Great. Ms. Humphries?
    Ms. Humphries. All right. I would add that except coming 
from a State director perspective, I would strongly encourage 
we look at some of the planning efforts that are already in 
place. I will give you a for instance.
    In Michigan, we already have a pretty good plan in place 
with the State agency in taking a look at restoration for 
waterfowl management. And so encouraging NRCS to work with 
those existing plans to accomplish the goals that we want to 
achieve gets at your vision that you mentioned.
    Second of all, we need those technical assistance dollars 
that I mentioned in my testimony. They are really paramount. 
And we need to make sure that we are leveraged additional 
dollars. At Ducks Unlimited, when we build these comprehensive 
partnerships, we like to bring in local partners as well as 
other NGOs, as well as Government partners. But many times we 
leverage dollars so that we are, you know, at least 4:1, 
sometimes as much as 10:1. And then by having the large NGOs 
involved, you can make sure you have good accountability for 
that funding also. We have the practices in place. We can track 
it well and make sure that we are pulling this whole leverage, 
this agreement together. Those regional partnership programs 
that I mentioned earlier that are talked about are just 
excellent because they involve it at the local level as well as 
the regional and the State level.
    Chairwoman Stabenow. Great. Thank you.
    In just the brief amount of time I have, I would ask our 
other four witnesses, when we talk about conservation, you have 
all talked about the importance for your operations. But I 
wonder if any of you would want to just expand a little bit on 
the changes in production, any experiences in terms of fewer 
losses, or any other noticeable results that you have had as it 
relates to conservation programs. Yes, Mr. Mattson?
    Mr. Mattson. Chairwoman Stabenow, I can honestly say that 
each and every conservation practice that we have added on our 
farm has resulted in a financial return for every effort we 
have had. We add no-till, we started saving water, which turned 
into more wheat, which turns into more dollars. We add GPS 
technology, which cuts back on overlap. On our farm, we figure 
over 4 percent in overlap without GPS equipment, and that 4 
percent is completely eliminated. And not only is the cost of 
that 4 percent eliminated, but it is the economic and the 
environmental issue that is eliminated, too. We are now farming 
right on the line.
    So it is very easy for me to look in the conservation 
practices because they all seem to turn around and end up in a 
positive way at the end of the year.
    Chairwoman Stabenow. Does anyone else briefly want to 
comment? Yes, Mr. Garber?
    Mr. Garber. Ms. Stabenow, my farm is in the coastal prairie 
of southwest Louisiana, as I said earlier, and if you can 
envision, the upper part of the farm is fairly flat, and that 
is where we produce rice and soybeans. And then I have a 
portion of the farm that becomes highly erodible land as it 
drops to lower elevation, which is in pasture and hay. And then 
the other portion where the highly erodible land is, it is in 
improved pine. And then I have some bottomland hardwood.
    So as I took these practices and implemented them, it did 
absolutely help my farm. But the beauty part of it is, as I 
look at that land and I look at what I have done with the help 
of the cost-share programs and the programs that are available 
through CSP, EQIP, and what have you, I see a farm that will be 
there for my children. It will be there for the future. It is a 
productive farm, and the benefit is to the whole society in the 
fact that it will be a productive farm making food, fiber, and 
fuel for the future.
    Thank you.
    Chairwoman Stabenow. Thank you very much.
    Yes, Mr. Mosel?
    Mr. Mosel. Chairwoman Stabenow, I have been involved for 
the past 10 years on our local lake committee. We have had the 
local biology department from Mankato State University studying 
the quality of the water and the watershed coming into that 
lake. I can see that on my farm, with having the diversity of 
crops that I do through the CSP program, there is no question 
that I have seen a reduction in erosion and retention of water 
on my farm because of the diversity of crops. I guess the CSP 
program has very good quality through it also, and I would not 
want to have any of that reduced. But the CSP program works 
really well with that program, I do not think one takes away 
from the other. I would hope to see CSP further in my area.
    Chairwoman Stabenow. Thank you.
    Yes, Mr. Stoskopf?
    Mr. Stoskopf. Yes, I will agree with pretty much everything 
the other panelists have said. My parents started conservation 
work in the 1930s during the middle of the Dust Bowl, building 
shelterbelts, and starting waterways, and we just recently used 
the EQIP program to renovate that shelterbelt that was put in 
in 1938. So it is a continuing process on our farm.
    The CRP has had tremendous benefits. The other EQIP 
programs that we have been able to utilize, every one is very 
beneficial to our operation.
    Chairwoman Stabenow. Great. Well, thank you to each of you. 
My time is more than up, but, Mr. Garber, I did want to say I 
started as a county commissioner in public service, and the 
soil conservation district was something that I learned about 
very quickly, and the importance of the conservation districts 
has been something I have paid attention to throughout my 
career.
    And I also want to put an editorial comment. You mentioned 
about the budget, and, you know, we have got to work very hard 
to make sure we get the right budget resolution and the right 
dollars available. The $18 billion that the House passed last 
year in conservation cuts, if that were to happen again this 
year, if that is the number we were dealing with, it would make 
it very hard to continue any of what we are talking about here. 
So we have been working together on our Committee and the 
leadership in the House, and hopefully we will be in a position 
where we can do the things that we think are important here in 
terms of having the level of resources and flexibility that we 
need.
    Senator Roberts?
    Senator Roberts. Thank you, and thank you to all the 
witnesses, and thank you for your comments to the questions of 
the distinguished Senators.
    Dean, I like the guidelines you have in your testimony: 
Keep programs simple, keep programs local, let the USDA staff 
provide assistance, not enforcement. I think that we tend to 
forget some of those basics when we draft legislation and new 
programs. You know and I know that the number one issue that we 
hit whenever I am out in Kansas--I just spent 10 days there--is 
overregulation and enforcement. So that poses a real problem.
    You have some specific ideas about CRP and emergency haying 
and grazing. I appreciate that. I know sometimes the Government 
is not as responsive as it should be. Could you just tell me, 
what did you and your neighbors experience last year during the 
drought, more especially since we are still dry?
    Mr. Stoskopf. Thank you, Senator. Our operation is in the 
center of the State, so the extreme drought that was in 
southwest Kansas and caught Texas and Oklahoma was the lead to 
implementing a lot of the releases of CRP acres for haying and 
grazing, which helped us because we fell right in line with the 
other areas that were in trouble. So this year, we had pretty 
timely release of those acres to utilize. That has not always 
been the case. Usually it is a lag that is several months later 
than we really needed it. So from that perspective, it worked 
pretty well.
    The haying and grazing, the one comment that was presented 
earlier in your question of burning the hay or not being able 
to utilize hay off of some of those acres, it was really a 
disincentive for people that did not have their own cattle. You 
could give the hay to somebody else or let them graze, but they 
had to give up 25 percent of their payments in order to be a 
good neighbor to somebody else. And that really limited some of 
the acres that could have been utilized when we were 
desperately in need of forages throughout the country.
    The other area that would be helpful is we have CRP several 
counties away that was not in the drought-declared areas 
ineligible for haying and grazing. It was an area that, 
fortunately, had good rainfall. The hay was in excellent 
condition--rather, the grass was. It could have been utilized 
by a lot of people from our area south, but since it was not in 
a designated disaster area, it could not be utilized.
    So the idea of double dipping or getting more money when 
forages were as tight as they were this last year and this 
winter, some of those kind of activities would be very helpful 
to the cattlemen across the areas in trouble.
    Senator Roberts. I appreciate that very much.
    Jeff, you have already talked about your 3:1 match when you 
are required to have 1:1, so I congratulate you on that. Kansas 
has over half a million acres in expiring CRP contracts, 
probably the leading State. Is the foundation looking at the 
potential impact of the acreage shift in CRP? And are you 
working on any of the acres coming out of CRP?
    Mr. Trandahl. Yes, we do an enormous amount in terms of 
reaching out to producers to understand what conservation 
practices can be done beyond CRP and how to convert. NRCS is 
standing up a series of programs in order to try to help 
producers finding themselves in that situation. Hopefully we do 
not see all the acres coming out of CRP, though, and hopefully 
this Committee can act on CRP in a way that we can see maximum 
enrollment possible.
    Thank you.
    Senator Roberts. That is what we are going to try to do.
    Madam Chairman, we heard Senator Baucus talk about this, 
you have talked about it, I have talked about it, about when we 
start a farm bill, we know we have 17 seconds to talk to 
somebody before there is a high glaze on the farm bill.
    Chairwoman Stabenow. Right.
    Senator Roberts. So during those 17 seconds, it is pretty 
important, and I think every witness here has touched upon this 
in terms of the value of these conservation programs. If we are 
going to feed 9 billion people in a couple of decades, in other 
words, if we step up on a humanitarian basis, but also in 
regards to stability around the world, you and I both have 
talked about this: Show me a country that cannot sustain itself 
in regards to its own food supply, you have got chaos. When you 
have chaos, you have instability. When you have instability, 
you have terrorism. And you see what is happening in the 
Mideast where the Arab Spring has turned into an Arab 
nightmare. What they want is a stable food supply, number one.
    So on behalf of our own efforts to achieve world stability 
and national security, everything that you are talking about 
plays into a much larger role, and what I am trying to figure 
out is when we are cutting ag research, cutting conservation 
programs, and still have to feed 9 billion people down the road 
and double ag production, how are we going to do this?
    I appreciate your help. I appreciate your constructive 
ideas, and I thank you all for coming.
    Chairwoman Stabenow. Well, thank you very much, Senator 
Roberts. You and I have spoken and are sharing joint concerns 
about ag research and conservation, and, again, I just have to 
stress that, you know, we need to make sure we do not see a 
level of cut coming out of the House that makes it impossible 
for us to be able to write a farm bill and certainly create a 
conservation title. So we have got a lot of work to do together 
on this to make sure we can address the need and to be 
responsible in deficit reduction, but also address our other 
responsibilities.
    Senator Klobuchar has joined us, and, again, thank you very 
much. Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Madam Chair. It is 
good to be back. I was over on the floor giving a speech on my 
other life, which is judicial confirmations, but I am glad to 
be back here where things are a little more normal.
    Mr. Mosel, have you enjoyed being on the panel so far? Has 
anyone asked you a question except me?
    Mr. Mosel. Yes.
    Senator Klobuchar. Do you want to turn your microphone on 
so we can hear you? Okay, good.
    Now, you know our State has the greatest number of farmers 
I think it is over 2,300--using the Conservation Stewardship 
Program, and the program consistently is in high demand for 
every sign-up. Why do you think our State has done well with 
it? And what do you see as its strengths and how it could be 
improved?
    Mr. Mosel. Well, thank you, Senator Klobuchar. For me 
personally, when I saw the Land Stewardship Project was 
advertising, I felt it was important for all farmers to think 
about participating. I guess I would look at our state--and 
maybe it is not that different in other states, but we have the 
major river system in Minnesota which drains through our 
primary ag region and then drains into the Mississippi. We do 
not want to have any more soil leave our farms. I have plugged 
my tile intakes with the blinding intakes and I have received 
some assistance through NRCS for that.
    As I was telling the Committee earlier, I currently serve 
on a lake committee, and one of our responsibilities is to 
cleanthe watershed. We are working with area farmers to put in 
buffer strips and are encouraging conservation practices. This 
Conservation Stewardship Program would be a great leap forward 
if we could get more of the producers into it.
    But so far I have not had any problems with the sign-up 
process. I have to say it is not as transparent as I would like 
to see it.
    Senator Klobuchar. I think in your testimony you talk about 
family farmers and how you think more of a focus should be on 
family farmers in terms of conservation dollars. Do you have 
any ideas on how you can make it easier for family farmers to 
participate?
    Mr. Mosel. Yes, if there was a way to make it somewhat more 
transparent--I have had some neighbors, you know, they have 
kind of gone in and gone through the process preliminarily, and 
they got very-- somewhat confused by it, I think. So we do need 
to make it a little easier for that. They need to sort of know 
what the outcome is going to be so it does not affect their 
bottom line.
    Senator Klobuchar. Could you tell me how you use the EQIP 
and CSP programs together to maintain your conservation 
practices?
    Mr. Mosel. We have a farm that my wife grew up on. Her 
parents passed away a few years ago, and we run that farm. I 
noticed when we took it over, we had a small rain-- or not a 
small rain, but a normal rainfall, and the soil erosion was 
immense. And so I worked with the local NRCS officer, and we 
installed through the EQIP program, contour strips. I have a 
12-row planter, and he set it up perfect for the planter. 
Everything works great. I think maybe in years past that would 
have been a problem, but now with the newer equipment and the 
GPS equipment that I will be installing, these contour strips 
are no longer a challenge. Now the erosion on that field is 
almost minimal to zero. We have had some pretty good rains, and 
when we have investigated, it has almost stopped completely. 
CSP helps me to maintain those strips, I think.
    You know, right now with the crop prices the way they are, 
there would be maybe some advantage to me--or at least I would 
be tempted, you know, to plant all corn. But with the CSP 
program, it takes some of the sting out of staying in the four-
crop rotation.
    Senator Klobuchar. Well, good. I am looking forward to 
visiting your farm.
    Mr. Mosel. Thank you.
    Senator Klobuchar. I might need a GPS to get there.
    [Laughter.]
    Senator Klobuchar. But I plan on coming this year.
    One last question I have for Ms. Humphries. You know, 
wetlands restoration is very important, as we know, an 
incredibly important conservation tool. And last year Senator 
Thune and I sent a letter in support of funding for the North 
American Wetlands Conservation Act, which leverages Federal 
dollars against State, local, and private funding to complete 
the conservation projects.
    Could you tell me how organizations like yours, like Ducks 
Unlimited, use this funding in order to maintain conservation 
programs for wetlands?
    Ms. Humphries. I would be most pleased to. Thank you.
    Well, NAWCA funding is a critical link in that. What we do 
is we wind up leveraging private dollars and State dollars 
against the Federal dollars to go in and build partnerships on 
our most critical wetland areas that we have identified. We use 
that with a combination of State employees, Federal employees, 
and also those volunteers, and we go in and do restoration, and 
then typically we also like to go in and do acts that will help 
preserve those lands in the future, put on conservation 
easements, produce something that is going to make sure that it 
is sustainable in the long run.
    It is a great program. Quite frankly, NAWCA has provided a 
tremendous incentive to go in and do wetland restoration around 
the country. And it helps preserve those vital wetland areas 
and our clean water that is so important to all of us.
    Senator Klobuchar. Okay. Well, thank you.
    Ms. Humphries. Thank you.
    Senator Klobuchar. Thank you very much, all of you, for 
your great work, and I look forward to working with you on this 
farm bill. Thank you.
    Chairwoman Stabenow. Well, thank you to each of you. This 
has been extremely helpful, and we appreciate your insight. 
This is a very, very important part of the farm bill, and as 
you can tell from all the members' participating, there is a 
great commitment and interest.
    I would ask that any additional questions for the record be 
submitted to the Committee clerk 5 business days from today. 
That is by 5:00 p.m. on Tuesday, March 6th. And, again, we look 
forward to working with you as we complete our farm bill 
process.
    The meeting is adjourned.
    [Whereupon, at 12:43 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                           FEBRUARY 28, 2012



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 78272.001

[GRAPHIC] [TIFF OMITTED] 78272.002

[GRAPHIC] [TIFF OMITTED] 78272.003

[GRAPHIC] [TIFF OMITTED] 78272.004

[GRAPHIC] [TIFF OMITTED] 78272.005

[GRAPHIC] [TIFF OMITTED] 78272.006

[GRAPHIC] [TIFF OMITTED] 78272.007

[GRAPHIC] [TIFF OMITTED] 78272.008

[GRAPHIC] [TIFF OMITTED] 78272.009

[GRAPHIC] [TIFF OMITTED] 78272.010

[GRAPHIC] [TIFF OMITTED] 78272.011

[GRAPHIC] [TIFF OMITTED] 78272.012

[GRAPHIC] [TIFF OMITTED] 78272.013

[GRAPHIC] [TIFF OMITTED] 78272.014

[GRAPHIC] [TIFF OMITTED] 78272.015

[GRAPHIC] [TIFF OMITTED] 78272.016

[GRAPHIC] [TIFF OMITTED] 78272.017

[GRAPHIC] [TIFF OMITTED] 78272.018

[GRAPHIC] [TIFF OMITTED] 78272.019

[GRAPHIC] [TIFF OMITTED] 78272.020

[GRAPHIC] [TIFF OMITTED] 78272.021

[GRAPHIC] [TIFF OMITTED] 78272.022

[GRAPHIC] [TIFF OMITTED] 78272.023

[GRAPHIC] [TIFF OMITTED] 78272.024

[GRAPHIC] [TIFF OMITTED] 78272.025

[GRAPHIC] [TIFF OMITTED] 78272.026

[GRAPHIC] [TIFF OMITTED] 78272.027

[GRAPHIC] [TIFF OMITTED] 78272.028

[GRAPHIC] [TIFF OMITTED] 78272.029

[GRAPHIC] [TIFF OMITTED] 78272.030

[GRAPHIC] [TIFF OMITTED] 78272.031

[GRAPHIC] [TIFF OMITTED] 78272.032

[GRAPHIC] [TIFF OMITTED] 78272.033

[GRAPHIC] [TIFF OMITTED] 78272.034

[GRAPHIC] [TIFF OMITTED] 78272.035

[GRAPHIC] [TIFF OMITTED] 78272.036

[GRAPHIC] [TIFF OMITTED] 78272.037

[GRAPHIC] [TIFF OMITTED] 78272.038

[GRAPHIC] [TIFF OMITTED] 78272.039

[GRAPHIC] [TIFF OMITTED] 78272.040

[GRAPHIC] [TIFF OMITTED] 78272.041

[GRAPHIC] [TIFF OMITTED] 78272.042

[GRAPHIC] [TIFF OMITTED] 78272.043

[GRAPHIC] [TIFF OMITTED] 78272.044

[GRAPHIC] [TIFF OMITTED] 78272.045

[GRAPHIC] [TIFF OMITTED] 78272.046

[GRAPHIC] [TIFF OMITTED] 78272.047

[GRAPHIC] [TIFF OMITTED] 78272.048

[GRAPHIC] [TIFF OMITTED] 78272.049

[GRAPHIC] [TIFF OMITTED] 78272.050

[GRAPHIC] [TIFF OMITTED] 78272.051

[GRAPHIC] [TIFF OMITTED] 78272.052

[GRAPHIC] [TIFF OMITTED] 78272.053

[GRAPHIC] [TIFF OMITTED] 78272.054

[GRAPHIC] [TIFF OMITTED] 78272.055

[GRAPHIC] [TIFF OMITTED] 78272.056

[GRAPHIC] [TIFF OMITTED] 78272.057

[GRAPHIC] [TIFF OMITTED] 78272.058

[GRAPHIC] [TIFF OMITTED] 78272.059

[GRAPHIC] [TIFF OMITTED] 78272.060

[GRAPHIC] [TIFF OMITTED] 78272.061

[GRAPHIC] [TIFF OMITTED] 78272.062

[GRAPHIC] [TIFF OMITTED] 78272.063

[GRAPHIC] [TIFF OMITTED] 78272.064

[GRAPHIC] [TIFF OMITTED] 78272.065

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           FEBRUARY 28, 2012



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 78272.066

[GRAPHIC] [TIFF OMITTED] 78272.067

[GRAPHIC] [TIFF OMITTED] 78272.068

[GRAPHIC] [TIFF OMITTED] 78272.069

[GRAPHIC] [TIFF OMITTED] 78272.070

[GRAPHIC] [TIFF OMITTED] 78272.071

[GRAPHIC] [TIFF OMITTED] 78272.072

[GRAPHIC] [TIFF OMITTED] 78272.073

[GRAPHIC] [TIFF OMITTED] 78272.074

[GRAPHIC] [TIFF OMITTED] 78272.075

[GRAPHIC] [TIFF OMITTED] 78272.076

[GRAPHIC] [TIFF OMITTED] 78272.077

[GRAPHIC] [TIFF OMITTED] 78272.078

[GRAPHIC] [TIFF OMITTED] 78272.079

[GRAPHIC] [TIFF OMITTED] 78272.080

[GRAPHIC] [TIFF OMITTED] 78272.081

[GRAPHIC] [TIFF OMITTED] 78272.082

[GRAPHIC] [TIFF OMITTED] 78272.083

[GRAPHIC] [TIFF OMITTED] 78272.084

[GRAPHIC] [TIFF OMITTED] 78272.085

[GRAPHIC] [TIFF OMITTED] 78272.086

[GRAPHIC] [TIFF OMITTED] 78272.087

[GRAPHIC] [TIFF OMITTED] 78272.088

[GRAPHIC] [TIFF OMITTED] 78272.089

[GRAPHIC] [TIFF OMITTED] 78272.090

[GRAPHIC] [TIFF OMITTED] 78272.091

[GRAPHIC] [TIFF OMITTED] 78272.092

[GRAPHIC] [TIFF OMITTED] 78272.093

[GRAPHIC] [TIFF OMITTED] 78272.094

[GRAPHIC] [TIFF OMITTED] 78272.095

[GRAPHIC] [TIFF OMITTED] 78272.096

[GRAPHIC] [TIFF OMITTED] 78272.097

[GRAPHIC] [TIFF OMITTED] 78272.098

[GRAPHIC] [TIFF OMITTED] 78272.099

[GRAPHIC] [TIFF OMITTED] 78272.100

[GRAPHIC] [TIFF OMITTED] 78272.101

[GRAPHIC] [TIFF OMITTED] 78272.102

[GRAPHIC] [TIFF OMITTED] 78272.103

[GRAPHIC] [TIFF OMITTED] 78272.104

      
=======================================================================


                         QUESTIONS AND ANSWERS

                           FEBRUARY 28, 2012



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] 78272.105

[GRAPHIC] [TIFF OMITTED] 78272.106

[GRAPHIC] [TIFF OMITTED] 78272.107

[GRAPHIC] [TIFF OMITTED] 78272.108

[GRAPHIC] [TIFF OMITTED] 78272.109

[GRAPHIC] [TIFF OMITTED] 78272.110

[GRAPHIC] [TIFF OMITTED] 78272.111

[GRAPHIC] [TIFF OMITTED] 78272.112

[GRAPHIC] [TIFF OMITTED] 78272.113

[GRAPHIC] [TIFF OMITTED] 78272.114

[GRAPHIC] [TIFF OMITTED] 78272.115

[GRAPHIC] [TIFF OMITTED] 78272.116

[GRAPHIC] [TIFF OMITTED] 78272.117

[GRAPHIC] [TIFF OMITTED] 78272.118

[GRAPHIC] [TIFF OMITTED] 78272.119

[GRAPHIC] [TIFF OMITTED] 78272.120

[GRAPHIC] [TIFF OMITTED] 78272.121

[GRAPHIC] [TIFF OMITTED] 78272.122

[GRAPHIC] [TIFF OMITTED] 78272.123

[GRAPHIC] [TIFF OMITTED] 78272.124

[GRAPHIC] [TIFF OMITTED] 78272.125

[GRAPHIC] [TIFF OMITTED] 78272.126

[GRAPHIC] [TIFF OMITTED] 78272.127

[GRAPHIC] [TIFF OMITTED] 78272.128

[GRAPHIC] [TIFF OMITTED] 78272.129

[GRAPHIC] [TIFF OMITTED] 78272.130

[GRAPHIC] [TIFF OMITTED] 78272.131

[GRAPHIC] [TIFF OMITTED] 78272.132

[GRAPHIC] [TIFF OMITTED] 78272.133

[GRAPHIC] [TIFF OMITTED] 78272.134

[GRAPHIC] [TIFF OMITTED] 78272.135

[GRAPHIC] [TIFF OMITTED] 78272.136

[GRAPHIC] [TIFF OMITTED] 78272.137

[GRAPHIC] [TIFF OMITTED] 78272.138

[GRAPHIC] [TIFF OMITTED] 78272.139

[GRAPHIC] [TIFF OMITTED] 78272.140

[GRAPHIC] [TIFF OMITTED] 78272.141

[GRAPHIC] [TIFF OMITTED] 78272.142

[GRAPHIC] [TIFF OMITTED] 78272.143

[GRAPHIC] [TIFF OMITTED] 78272.144

[GRAPHIC] [TIFF OMITTED] 78272.145

[GRAPHIC] [TIFF OMITTED] 78272.146

[GRAPHIC] [TIFF OMITTED] 78272.147

[GRAPHIC] [TIFF OMITTED] 78272.148

[GRAPHIC] [TIFF OMITTED] 78272.149

[GRAPHIC] [TIFF OMITTED] 78272.150

[GRAPHIC] [TIFF OMITTED] 78272.151

[GRAPHIC] [TIFF OMITTED] 78272.152

[GRAPHIC] [TIFF OMITTED] 78272.153

[GRAPHIC] [TIFF OMITTED] 78272.154

[GRAPHIC] [TIFF OMITTED] 78272.155

[GRAPHIC] [TIFF OMITTED] 78272.156

[GRAPHIC] [TIFF OMITTED] 78272.157

[GRAPHIC] [TIFF OMITTED] 78272.158

[GRAPHIC] [TIFF OMITTED] 78272.159

[GRAPHIC] [TIFF OMITTED] 78272.160

[GRAPHIC] [TIFF OMITTED] 78272.161

[GRAPHIC] [TIFF OMITTED] 78272.162

[GRAPHIC] [TIFF OMITTED] 78272.163

[GRAPHIC] [TIFF OMITTED] 78272.164

[GRAPHIC] [TIFF OMITTED] 78272.165

[GRAPHIC] [TIFF OMITTED] 78272.166

[GRAPHIC] [TIFF OMITTED] 78272.167

[GRAPHIC] [TIFF OMITTED] 78272.168

[GRAPHIC] [TIFF OMITTED] 78272.169

[GRAPHIC] [TIFF OMITTED] 78272.170

[GRAPHIC] [TIFF OMITTED] 78272.171

[GRAPHIC] [TIFF OMITTED] 78272.172

[GRAPHIC] [TIFF OMITTED] 78272.173

[GRAPHIC] [TIFF OMITTED] 78272.174

[GRAPHIC] [TIFF OMITTED] 78272.175

[GRAPHIC] [TIFF OMITTED] 78272.176

[GRAPHIC] [TIFF OMITTED] 78272.177

[GRAPHIC] [TIFF OMITTED] 78272.178

[GRAPHIC] [TIFF OMITTED] 78272.179

[GRAPHIC] [TIFF OMITTED] 78272.180

[GRAPHIC] [TIFF OMITTED] 78272.181

[GRAPHIC] [TIFF OMITTED] 78272.182

[GRAPHIC] [TIFF OMITTED] 78272.183

[GRAPHIC] [TIFF OMITTED] 78272.184

[GRAPHIC] [TIFF OMITTED] 78272.185

[GRAPHIC] [TIFF OMITTED] 78272.186

[GRAPHIC] [TIFF OMITTED] 78272.187

[GRAPHIC] [TIFF OMITTED] 78272.188

[GRAPHIC] [TIFF OMITTED] 78272.189

[GRAPHIC] [TIFF OMITTED] 78272.190

[GRAPHIC] [TIFF OMITTED] 78272.191

[GRAPHIC] [TIFF OMITTED] 78272.192

[GRAPHIC] [TIFF OMITTED] 78272.193

[GRAPHIC] [TIFF OMITTED] 78272.194

[GRAPHIC] [TIFF OMITTED] 78272.195

[GRAPHIC] [TIFF OMITTED] 78272.196

[GRAPHIC] [TIFF OMITTED] 78272.197


</pre></body></html>
